U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                        Review of the Security and
                        Emergency Planning Staff’s
                             Management of
                        Background Investigations
                                      September 2005




                               Report Number I-2005-010
                              EXECUTIVE SUMMARY


      The Department of Justice’s (Department) Security and Emergency
Planning Staff (SEPS) is the primary office responsible for developing,
implementing, and ensuring compliance with security policy throughout
the Department. SEPS has direct responsibility for managing
background investigations on 27,000 of the Department’s 103,000
employees. SEPS has delegated to personnel security staff in the
components the authority to adjudicate background investigations and
reinvestigations for their employees and contractors, and the authority to
grant waivers so new employees can begin work. In total, 20 components
have delegated adjudication authority – 7 have the authority for
employees and contractors, and 13 have the authority only for
contractors. 1

      Overall, SEPS has four responsibilities related to background
investigations in the Department: (1) managing background
investigations of political appointees, attorneys, and other personnel
whose investigations are not delegated to the components; (2) granting
clearances for access to Sensitive Compartmented Information (SCI)
materials for all Department employees; (3) providing policy guidance
and training on background investigations; and (4) providing oversight of
the components’ background investigation programs. 2

      The Office of the Inspector General (OIG) conducted this review to
examine SEPS’s management of its background investigation program.
Specifically, we reviewed SEPS’s administration of the background
investigations and security clearances it manages, SEPS’s role in
establishing Department policy on background investigations, and
SEPS’s oversight of the background investigations delegated to
components.

       1 The Department components with delegated authority to manage the

background investigations of employees and contractors are the Bureau of Alcohol,
Tobacco, Firearms and Explosives (ATF); Federal Bureau of Prisons (BOP); Drug
Enforcement Agency (DEA); Executive Office for United States Trustees (EOUST);
Federal Bureau of Investigation (FBI); National Drug Intelligence Center; and United
States Marshals Service (USMS). See Appendix I for additional information on
components with delegated authority.
       2 SCI is a security classification that is more restrictive than Top Secret, often

covering information that deals with intelligence sources, methods, or activities.



______________________________________________________________________________________
U.S. Department of Justice                                                        i
Office of the Inspector General
Evaluation and Inspections Division
RESULTS IN BRIEF

       In fiscal year (FY) 2004, SEPS met federal regulatory requirements
for adjudicating background investigations within 90 days in 85 percent
of the cases it processed. 3 Further, in response to a SEPS survey,
Department components expressed satisfaction with the service SEPS
provided on SCI clearances and clearance verifications for Department
employees and contractors. SEPS achieved these results despite the fact
that, after September 11, 2001, SEPS’s workload of background
investigation adjudications and SCI clearances more than doubled.
Because it received no additional resources to process this workload,
SEPS prioritized its background investigation adjudications and
redirected its resources to the highest priority cases. In FY 2004, SEPS
adjudicated 99 percent of its highest priority cases (those of political
appointees and attorneys) within the required 90 days.

       However, SEPS did not adjudicate lower priority background
investigations within the required time. Further, SEPS did not fully meet
other important responsibilities related to policy and oversight.
Specifically, the Department’s personnel security policy – contained in
DOJ Order 2610.2A (August 21, 1990) and more than 40 memorandums
issued over the past 15 years – is inconsistent, outdated, and not
available in electronic form. In addition, SEPS has not implemented an
effective oversight program to ensure that components with delegated
authority to adjudicate background investigations comply with
regulations and policy.

        We also found that SEPS has limited ability to electronically track
background investigation files. First, SEPS has no capability to maintain
electronic copies of background investigation files. Instead, it relies on
an outdated inventory system to track its own paper personnel security
files, which are maintained in one location. We believe this is an
important vulnerability, as all the files could be lost in a fire or other
disaster. Second, there is no Department-wide database to track
background investigations. This hinders SEPS’s ability to effectively
monitor the background investigation process in Department
components with delegated authority.



       3 Adjudication is defined as the final decision on an individual’s suitability to

hold a particular position.



______________________________________________________________________________________
U.S. Department of Justice                                                       ii
Office of the Inspector General
Evaluation and Inspections Division
        Moreover, new standards for background investigations contained
in the Intelligence Reform and Terrorism Prevention Act of 2004
(Intelligence Reform Act) will significantly change the standards the
Department must meet in completing background investigations. The
Intelligence Reform Act requires that, by December 2009, 90 percent of
background adjudications must be completed within 20 days and
90 percent of field investigations within 40 days. To meet those
standards, SEPS will have to greatly expedite its processing of
adjudications from its FY 2004 performance levels. In FY 2004, SEPS
completed only 46 percent of adjudications within 20 days. SEPS’s
oversight workload will also increase because it must ensure that the
components with delegated authority comply with the requirements in
the Intelligence Reform Act.

      In the next sections, we provide more detail regarding these
findings.

SEPS’s Personnel Security Operations

       SEPS’s Processing of Background Investigations and SCI
Clearances. Federal regulations require that the Department adjudicate
background investigations and report the results to the Office of
Personnel Management (OPM) within 90 days of the completion of the
field investigation. In FY 2004, SEPS processed 85 percent of its initial
employee adjudications within the required 90 days.

      SEPS accomplished these results even though its workload
increased significantly in the last 5 years. From FY 2000 through
FY 2004, SEPS’s background investigation workload almost doubled,
from 7,018 actions (such as initiating investigations of new employees or
reinvestigations of current employees) in FY 2000 to 13,509 actions in
FY 2004. Overall, SEPS processed 55,197 actions on background
investigations during those 5 fiscal years. In addition, SEPS’s SCI
workload increased by 150 percent from calendar year (CY) 2000 through
CY 2004. In CY 2000, SEPS cleared or verified clearances for 2,061
Department staff. In CY 2004, SEPS cleared or verified clearances for
5,166 Department staff.

      Because SEPS did not receive additional staffing or resources
commensurate with its increased workload, it redirected its existing
resources to process adjudications and clearances in priority order.
SEPS’s four highest personnel security priorities are adjudication of
background investigation cases involving political appointees and

______________________________________________________________________________________
U.S. Department of Justice                                                       iii
Office of the Inspector General
Evaluation and Inspections Division
attorneys, processing requests for SCI access, certification of clearances
to other agencies, and processing waivers. 4

       For political appointees and attorneys, in FY 2004 SEPS completed
over 99 percent of the adjudications within the required 90 days. There
are no established timeliness standards for SEPS’s three other highest
work priorities. Therefore, to examine SEPS’s performance in these
areas, we reviewed correspondence between SEPS and OPM, and a
customer satisfaction survey conducted by SEPS. OPM and component
officials who commented on these topics in SEPS’s survey reported that
they were generally satisfied with how quickly SEPS provided SCI
clearances and clearance verifications, and processed waiver requests.

      Although SEPS almost always adjudicated its highest priority cases
within the required 90 days, it did not always adjudicate lower priority
background investigation cases within that time. For example, in
FY 2004 SEPS adjudicated about 80 percent of the background
investigations for non-priority employees and only 54 percent of
employee reinvestigations in the required time. We also found that
SEPS’s performance of its other mission responsibilities – related to
providing policy guidance and oversight – was lacking.

       SEPS’s Policy Guidance. The Department’s personnel security
guidance is inconsistent and outdated. SEPS has not issued a complete
revision of the Department’s personnel security policy, known as DOJ
Order 2610.2A, since it was issued in 1990. The original order remains
in effect, but to reflect changes in security regulations and policy that
occurred over the past 15 years, SEPS has issued over 40 memorandums
to revise, amend, or supplement the guidance in the original order.
Some of the guidance has been amended more than once in separate
memorandums, making it difficult for users to readily determine which
guidance is current.

      Further, SEPS staff informed us that some of the guidance
contained in the order and memorandums is outdated because it has not
been revised to reflect current security requirements. In December 2004,

        4 Federal regulations permit agencies to grant waivers from the background

investigation requirements of Executive Order 10450 for a limited period of time,
allowing new applicants to begin working while their investigations are still in progress.
Agencies granting waivers must document which parts of the investigation have been
initiated or completed before the individual begins work. See 5 C.F.R. § 732.202(a).



______________________________________________________________________________________
U.S. Department of Justice                                                       iv
Office of the Inspector General
Evaluation and Inspections Division
in response to an inquiry related to a prior OIG review, SEPS officials told
us that SEPS had begun consolidating and updating the order. But, as
of July 2005, the revision was not complete. Among the reasons for
delays in completing the revision, SEPS told us that it was waiting for
comments from OPM on the draft and for guidance from the Office of
Management and Budget (OMB) on new personnel security requirements
introduced by Homeland Security Presidential Directive 12 (HSPD-12),
which was issued by the President in August 2004 and is scheduled to
be initiated in stages starting in October 2005.

      Also, SEPS has not effectively used available technology to make
security policy and guidance widely and readily accessible. We examined
the Personnel Security page of SEPS’s intranet site and found that it
contained only a list of SEPS’s Personnel Security Group’s functions. It
did not contain any of the Department’s personnel security policies – or
even a complete list of the current policies. The Security Policies page
did not include a personnel security section. It did contain the new
Security Programs Operating Manual, but no other personnel security
guidance was included.

      SEPS’s Oversight of Components With Delegated Authority. SEPS
has not implemented an effective oversight program to ensure that
components with delegated authority to adjudicate background
investigations comply with regulations and policy. OPM has delegated to
SEPS the responsibility for overseeing all Department background
investigations, including any field investigations that are conducted by
Department components rather than by OPM, and all adjudications.
SEPS has retained direct responsibility for managing background
investigations for all political appointees, Department attorneys,
employees of the United States Attorneys’ Offices (USAO); employees of
the Department’s Offices, Boards and Divisions; and certain other
designated positions. To the FBI, SEPS has delegated authority to
conduct the field investigations on all of the Department’s political
appointees and attorneys as well as on the FBI’s own employees and
contractors. To the ATF, SEPS has delegated authority to conduct field
investigations on its employees who are not political appointees or
attorneys and on its contractors. In addition, SEPS has delegated to
personnel security staff in the components the authority to adjudicate
background investigations and reinvestigations for their employees and
contractors, and the authority to grant waivers so new employees can
begin work. In total, 20 components have delegated adjudication
authority – 7 have the authority for employees and contractors, and 13
have the authority only for contractors (see Appendix I).

______________________________________________________________________________________
U.S. Department of Justice                                                        v
Office of the Inspector General
Evaluation and Inspections Division
      The personnel security compliance reviews SEPS conducts of
components to which it has delegated authority to manage background
investigations are limited in number and scope. Additionally, limited
enforcement authority and the lack of a centralized Department-wide
database of background investigation files hinder SEPS’s ability to
ensure that components and personnel comply with policies and
regulations related to personnel security.

      SEPS’s primary method for evaluating the components’ personnel
security operations is its on-site security compliance review. 5 However,
with only three Security Specialists and an annual travel budget of
$60,000, SEPS reviews about 1 percent of Department offices annually.
From 2002 through 2004, SEPS reviewed an average of 39 offices per
year. At that rate, it would take SEPS 75 to 90 years to inspect all of the
Department’s 3,000 to 3,500 offices.

      Moreover, the scope of each compliance review includes only a
small portion (about 4 hours of the review) dedicated to examining
personnel security operations. 6 The personnel security portion of the
review primarily checks that required paperwork was present, that
reinvestigations were initiated on time, and that mandatory annual
security training was completed. The compliance reviews do not examine
the quality of either the components’ field investigations or the
adjudications of employees’ and contractors’ clearances because such
reviews would mean less time for higher priority physical and
information technology security oversight. 7

      Even when compliance reviews identify security violations, SEPS
has limited enforcement authority to ensure that components and




       5SEPS also receives an annual statistical report from OPM on the Department’s
performance in meeting the 90-day adjudication standard.
       6  The on-site security reviews examine several security areas, such as building
security and information security, in addition to personnel security.
       7 SEPS can also ask OPM to conduct an in-depth review of a component’s

management of its background investigation operations. The last review SEPS
requested was of the ATF when it transferred to the Department in 2003.



______________________________________________________________________________________
U.S. Department of Justice                                                       vi
Office of the Inspector General
Evaluation and Inspections Division
individuals comply with policies and regulations. 8 As a consequence,
compliance reviews continue to identify violations already reported to the
component on past reviews. For example, one recent repeat violation has
involved a component’s granting security clearances for employees who
do not require access to classified material.

      Because the Department has no centralized personnel security
database, SEPS has limited capability to centrally monitor the
background investigation status of all Department employees. Instead,
each component keeps its own database, and the systems are not
interoperable. SEPS therefore cannot effectively monitor the
components’ compliance with pre-hiring and reinvestigation regulations,
adherence to policy on national security clearances, or the completeness
and timeliness of background investigation processing. For example,
SEPS cannot effectively identify and track all the Department employees
who are overdue for reinvestigation, nor can it perform effective oversight
to ensure compliance with personnel security regulations.

      SEPS’s File Tracking System and Paper Files. SEPS uses an
inventory management program called TRAQ to identify the location of
each background investigation file. The version of TRAQ used by SEPS is
outdated, at full capacity, and does not include needed capabilities. For
example, TRAQ lacks quality control features to prevent the entry of
erroneous information (such as nonsensical dates), cannot provide SEPS
with management reports on the data in the system, and has no
capability to maintain electronic copies of scanned security documents.

       Because SEPS cannot maintain electronic copies, all SEPS
background investigation files are maintained in paper form in one
location. Likewise, files related to SCI clearances are also maintained in
one location. This represents a significant vulnerability. The loss of the
paper records would severely disrupt case processing and clearance
verification.



       8  SEPS has the option to withdraw a component’s delegation of authority to
adjudicate background investigations and grant security clearances if SEPS determines
that the component is not in compliance with security regulations and policies.
However, if that occurs, the responsibility for conducting the adjudications would fall to
SEPS. Given SEPS’s current resource limitations, assuming the additional workload if
a delegation were withdrawn would be impractical. SEPS has never withdrawn a
component’s delegation of authority to adjudicate background investigations.



______________________________________________________________________________________
U.S. Department of Justice                                                      vii
Office of the Inspector General
Evaluation and Inspections Division
Changes Directed by the Intelligence Reform Act and HSPD-12

      The Intelligence Reform Act imposes progressively tighter
timeliness requirements for adjudications and field investigations that
may overwhelm SEPS’s current limited capabilities. The Intelligence
Reform Act requires that, by December 2009, 90 percent of adjudications
on background investigations and reinvestigations of individuals
requiring national security clearances must be completed within 20 days.
Further, 90 percent of the field investigations must be completed
within 40 days.

       To meet the new timeliness standards, SEPS will have to
significantly expedite adjudications. For example, in FY 2004, SEPS
adjudicated only 31 percent of employee reinvestigations and only
21 percent of contractor background investigations within 20 days. The
Intelligence Reform Act also will require SEPS to ensure that the
Department components with authority to conduct field investigations
meet timeliness standards for those investigations. SEPS is not well
positioned to meet these challenges.

       HSPD-12, issued by the President in August 2004 and scheduled
to be initiated in stages beginning October 27, 2005, expands SEPS’s
oversight responsibilities to include reviews of components’ hiring
practices for contractors who are investigated and hired directly by the
field offices where they will be working. Currently, SEPS reviews only the
investigations of contractors hired centrally through components’
headquarters. The lack of a centralized database prevents SEPS from
easily verifying whether each of these contractors received the proper
background check or even whether they are still employed. HSPD-12
also requires the recertification of identification cards for all employees
and contractors. With its current resources, processes, and authority,
SEPS will have difficulty both in meeting the performance requirements
of the Intelligence Reform Act and HSPD-12, and in providing oversight of
the Department’s compliance with those requirements.

RECOMMENDATIONS

       In this report, we make six recommendations to help improve
SEPS’s performance of its personnel security responsibilities and better
position the Department to meet the requirements of the Intelligence
Reform Act and HSPD-12.



______________________________________________________________________________________
U.S. Department of Justice                                                     viii
Office of the Inspector General
Evaluation and Inspections Division
We recommend that the Department:

   1. Develop a Department-wide plan for implementing the personnel
      security requirements of the Intelligence Reform Act and HSPD-12,
      and identify the resources that will be needed to enable the
      Department to meet the new requirements.

   2. Develop a Department-wide database with imaging capability to
      enable uniform processing and tracking of employee and
      contractor personnel security actions, permit central oversight of
      personnel security operations, and reduce the vulnerability caused
      by reliance on paper records.

We recommend that SEPS:

   3. Once OPM provides the necessary policy decisions, expeditiously
      issue an updated Department personnel security policy, DOJ
      Order 2610.2A.

   4. Develop a plan for conducting routine oversight of components
      with delegated authority that provides reasonable coverage and
      ensures that the background investigations and adjudications
      meet established standards for quality and timeliness.

   5. Institute an annual report to the Deputy Attorney General to
      describe the performance of the Department and each component
      in adjudicating background investigations and in complying with
      Department personnel security regulations and policies.

   6. Establish procedures to identify the policies, documents, and other
      information necessary for personnel security operations, and in
      coordination with the Department’s Office of the Chief Information
      Officer, make the documents available through the SEPS web site.




______________________________________________________________________________________
U.S. Department of Justice                                                       ix
Office of the Inspector General
Evaluation and Inspections Division
                                   TABLE OF CONTENTS



BACKGROUND ................................................................................ 1
 General Requirements for Background Investigations ......................... 1
 SEPS’s Organization........................................................................... 4
 SEPS’s Direct Responsibilities Related to Background Investigations .. 6
 SEPS’s Responsibilities for Policy Guidance...................................... 10
 Authorities Delegated by SEPS to the Components ........................... 10
 SEPS’s Oversight of Components With Delegated Authority .............. 11
 Recent Developments and Impending Changes in Background
 Investigations................................................................................... 14
PURPOSE, SCOPE, AND METHODOLOGY OF OIG REVIEW ............. 17
 Purpose of the OIG Review ............................................................... 17
 Scope ............................................................................................... 17
 Methodology..................................................................................... 17
RESULTS OF THE REVIEW............................................................ 20
 Workload and Priorities .................................................................... 20
 Adjudication Timeliness ................................................................... 22
 Policy Guidance ............................................................................... 26
 SEPS’s Oversight of Components With Delegated Authority .............. 29
 The Department’s Resource Requests for SEPS ................................ 37
 SEPS’s File Tracking System ............................................................ 37
 No Centralized Background Investigation Database .......................... 40
 Timeliness Requirements of the Intelligence Reform Act.................... 43
 Requirements of HSPD-12 ................................................................ 47
CONCLUSIONS AND RECOMMENDATIONS .................................... 50
APPENDIX I: Components With Delegated Authority .......................... 54
APPENDIX II: SEPS’s Organization .................................................... 56
APPENDIX III: The Justice Management Division’s Response............. 57
APPENDIX IV: The OIG’s Analysis Of JMD’s Response ....................... 60




______________________________________________________________________________________
U.S. Department of Justice                                                        i
Office of the Inspector General
Evaluation and Inspections Division
                                   BACKGROUND


      The Office of the Inspector General (OIG) conducted this review to
examine the Department of Justice’s (Department) Security and
Emergency Planning Staff’s (SEPS) background investigation program.
Specifically, we evaluated SEPS’s management of four program areas:
(1) managing background investigations of political appointees,
attorneys, and other personnel whose investigations are not delegated to
the components; (2) granting clearances for access to Sensitive
Compartmented Information (SCI) materials for all Department
employees; (3) providing policy guidance and training on background
investigations; and (4) providing oversight of the components’
background investigation programs.

General Requirements for Background Investigations

       All federal agencies must ensure that only trustworthy individuals
are hired to work in national security or public trust positions. 9 The
primary means for determining whether an individual is trustworthy is
the background investigation, authorized by Executive Order 10450 and
5 C.F.R. Parts 731, 732, and 736. The background investigation is not
an evaluation of the subject’s character, but is instead a determination of
the likelihood that a particular person will adhere to all Department
security requirements in the future.

       Each federal agency determines the required security level of each
position according to the duties that the employee holding the position
will fulfill. Once the security level of a position has been determined, an
investigation appropriate to that level is supposed to be conducted.
There are several types of background investigations, each varying in
scope and complexity. All background investigations begin with a
request to the employee to fill out a questionnaire targeted to the


       9  National security positions either involve the protection of the United States
from foreign aggression or espionage, or require regular access to classified material.
See 5 C.F.R. § 732.102. Public trust positions involve policy making, major program
responsibility, public safety and health, law enforcement duties, fiduciary
responsibilities, or other duties demanding a significant degree of public trust, and
positions involving access to or operation or control of financial records. See 5 C.F.R.
§ 731.106(b).



______________________________________________________________________________________
U.S. Department of Justice                                                       1
Office of the Inspector General
Evaluation and Inspections Division
position’s responsibilities. 10          OPM    Faces   Backlog   of  Cases
                                         OPM Faces
                                                FacesBacklog
                                                        Backlog
                                                             of Field Cases Pending
                                                                  of Investigations
                                                                             Pending
This is usually followed by an           Investigations
                                         Investigations
in-person interview with the
                                              There are currently no statutory timeliness
applicant and, in most cases,                 There
                                              There are
                                         requirements      currently
                                                      are for
                                                           currently       no
                                                                           no statutory
                                                                the completion statutory
                                                                                      of thetimeliness
                                                                                            timeliness
                                                                                               field
a number of interviews with              requirements
                                         requirements portion
                                         investigation        for
                                                              for the the     completion
                                                                               background of
                                                                       of thecompletion         of thethe
the applicant’s colleagues and           investigation        portion       of
                                                              portion Instead,
                                         investigation process.                   the
                                                                            of theOPM     background
                                                                                          background
                                                                                             sets
personal associates.                     investigation
                                         investigation
                                         internal   deadlinesprocess.
                                                             process.
                                                                  of 120 days Instead,
                                                                                   for theOPM
                                                                              Instead,        initialsets
                                                                                            OPM     sets
                                         internal
                                         internal
                                         field        deadlines
                                                      deadlinesand
                                               investigations           of   120
                                                                        of 180
                                                                             120     days
                                                                                daysdays
                                                                                       for the for
                                                                                               for thethe
Currently, there are no                  completion     of field
                                                            initial  background
                                         completion of               background investigations
                                                            initialreinvestigations.   investigations
                                                                                            In
federal timeliness                       and
                                         and 180
                                         February1802005, days
                                                          days OPMforfor     the
                                                                             the tocompletion
                                                                       reported      completion
                                                                                       the             of
                                                                                                       of
requirements for the field               reinvestigations.
                                         reinvestigations.
                                         Government                 In     February
                                                                    In February
                                                         Accountability                  2005,
                                                                                         2005,
                                                                                Office that        OPM
                                                                                                   OPM
                                                                                               nearly
investigation portion of the             reported     that
                                         reported field
                                         186,000      to the  nearly      186,000
                                                                  Government
                                                           investigations              investigations
                                                                                      Accountability
                                                                                had exceeded
background investigation                 had   exceeded
                                         Office self-imposed
                                         these               these
                                                 that nearly 186,000   self-imposed
                                                                   timeframes.            timeframes.
                                                                                investigations
                                                                                      Furthermore,   had
                                         Futhermore,
                                         exceeded
                                         OPM            these
                                                estimated        OPM
                                                              thatself-imposed  estimated
                                                                     approximately timeframes.      that
                                                                                          8,000 full-
process. 11                              approximately           8,000         full-time-equivalent
                                         Furthermore, investigators
                                         time-equivalent          OPM           estimated
                                                                                  would be needed   that
                                         investigators
                                         approximately
                                         to                 would
                                            clear this backlog   8,000 be   needed      to clear
                                                                               full-time-equivalent
                                                                      and provide      timely        this
                                                                                                 service
       The Office of Personnel           backlog
                                         for        and
                                         investigators
                                             new requests.  provide
                                                            would An be  timely
                                                                        OPM needed service
                                                                               officialto      for  new
                                                                                             clear at
                                                                                         testified   this
                                                                                                        a
                                         requests.andOPM
                                         backlog                  testified
                                                            provide      timely  atservice
                                                                                      a June   for 2005
                                                                                                    new
Management (OPM), through                June 2005 hearing
                                         hearing   of the Senate
                                                                    of the   Senate
                                                                         Homeland
                                                                                       Homeland
                                         requests.
                                         Security andOPM          testified
                                                          Governmental           at a Security
                                                                                Affairs   June 2005
                                                                                          Committee
                                                                                                     and
contracts with private                   Governmental        Affairs    Committee       that   with   the
                                         hearing
                                         that withofthethehiring
                                                              Senate     Homeland
                                                                    of new               Security and
                                                                               investigative
companies, conducts the vast             hiring  of
                                         Governmentalnew   investigative       contractors      and   the
                                         contractors andAffairs         Committee
                                                               the transfer             that with the
                                                                                 of investigators
majority of field investigations         transfer
                                         hiring
                                         from the
                                                    of  investigators
                                                 of Department
                                                     new investigative      from    the
                                                                               contractors
                                                                       of Defense
                                                                                          Department
                                                                                      to OPM,   and
                                                                                                  OPM the
of federal employees and                 of  Defense
                                         transfer   of   to OPM, they
                                                        investigators       from  now
                                                                                    the   have    8,000
                                                                                          Department
                                         now has 8,000 investigators available to work
                                         investigators
                                         of  Defense      available to work on this issue.
contractors. 12 The Federal              on this  issue.to OPM, they now have 8,000
                                         investigators available to work on this issue.
Bureau of Investigation (FBI)
conducts the field
investigations for all of the Department’s political appointees and
attorneys. SEPS is responsible for managing the background
investigations of political appointees, attorneys, and personnel in the
Offices, Boards and Divisions (see Appendix I.). Depending on the nature
of the position to be filled, either OPM or the FBI conducts the field

       10For instance, national security positions require completion of the SF-86
“Questionnaire for National Security Positions,” and public trust positions require
completing the SF-85P “Questionnaire for Public Trust Positions” or the SF-85
“Questionnaire for Non-Sensitive Positions.” Some Department components use their
own forms that incorporate required questions contained in the standard forms.
       11 The Intelligence Reform and Terrorism Prevention Act of 2004 enacted

timeliness requirements for the field investigative portion of the process that must be
met beginning in fiscal year (FY) 2007. These changes are discussed in greater detail
below.
       12 Components with law enforcement personnel, such as the United States

Marshals Service (USMS) and the Bureau of Alcohol, Tobacco, Firearms and Explosives
(ATF), may use their investigators to conduct investigations on some of their own
contractors. In addition, some contractors’ clearances may be transferred from other
agencies.



______________________________________________________________________________________
U.S. Department of Justice                                                       2
Office of the Inspector General
Evaluation and Inspections Division
investigations for SEPS. In FY 2004, SEPS submitted more than 3,133
requests to OPM for field investigations. 13 These investigations ranged in
cost from $425 to $3,300 each, depending on the type of investigation
requested and whether an expedited processing premium was paid.

       At one time, OPM estimated that its investigations took 35 days, 75
days, or 120 days, depending on the premium paid for expedited
processing. However, OPM has not been able to meet those processing
estimates since FY 2001 and, for FY 2004, changed its categories from
completion estimates to “priority,” “accelerated,” and “standard,” with
priority having the most expedited completion. In FY 2004, OPM’s
priority (formerly categorized as 35-day) cases took an average of 100
days, accelerated (formerly 75-day) cases took an average of 227 days,
and standard (formerly 120-day) cases took an average of 324 days. 14

      A SEPS adjudicator reviews the information collected during the
OPM or FBI field investigation and makes the final determination on
whether the applicant is suitable. Adjudicators rely on standards
established by the Central Intelligence Agency, OPM, the Department,
and the Department’s components to evaluate the information provided
by the field investigation. 15 These standards encourage adherence to a
“whole person” approach to reviewing the issues presented by each
individual case. Under that approach, when the investigation identifies
derogatory information about the person, the adjudicator should
consider factors such as the relevance of the information to position
responsibilities, the circumstances surrounding the derogatory
information, and the person’s candor in disclosing relevant information.
Federal regulations require that the adjudication be completed and the
results transmitted to OPM within 90 days after receipt of a completed
investigative case file. 16




       13   In FY 2004, SEPS submitted 495 requests for field investigations to the FBI.
       14   The FBI’s field investigations averaged 197 days in FY 2004.
       15 These standards include Director of Central Intelligence Directive 6/4; the
OPM Suitability Processing Handbook; Department guidance entitled, “Annex D:
Adjudicative Guidelines for Determining Eligibility for Access to Classified Information”;
and DOJ Order 2610.2A (August 21, 1990).
       16   See 5 C.F.R. § 732.302(b).



______________________________________________________________________________________
U.S. Department of Justice                                                       3
Office of the Inspector General
Evaluation and Inspections Division
       Federal law further requires that employees and contractors
holding a security clearance who have been employed in their jobs for
certain periods of time be subject to a reinvestigation to verify that they
are still suitable for their positions. Reinvestigation is required once
every 5 years for individuals possessing a Top Secret clearance, once
every 10 years for individuals possessing a Secret clearance, and once
every 15 years for individuals possessing a Confidential clearance. 17
Individual federal agencies may impose additional requirements to
expand the number of individuals subject to reinvestigation or to require
more frequent reinvestigations.

      The Department requires all its employees to be reinvestigated
once every 5 years. 18 For contractors, the Department only requires
reinvestigations for individuals holding national security positions; these
reinvestigations are required on the same schedule as those of
employees. The Department does not require that contractors in public
trust positions be reinvestigated, but some components, including the
ATF and USMS, require that these contractors be reinvestigated.

SEPS’s Organization

       SEPS is the primary office responsible for developing,
implementing, and overseeing compliance with security policy
throughout the Department. 19 SEPS is a unit of the Justice Management
Division (JMD), the administrative component of the Department. The
director of SEPS, who is formally known as the Department Security
Officer, reports to the Deputy Assistant Attorney General for Human
Resources and Administration and to the Assistant Attorney General for
Administration.

      SEPS has direct adjudicative responsibility for background
investigations on certain Department employees. In addition, SEPS has
delegated adjudicative responsibility to some components for their
employees, but it retains oversight responsibility over the delegated
functions. Consequently, SEPS has four responsibilities related to

       17   See 50 U.S.C. § 435b(a)(7).
       18 See DOJ Order 2610.2A, ¶13 (August 21, 1990), and Department Security
Officer memorandum FY 2001 Reinvestigation Program (January 16, 2001).
       19   See DOJ Order 2600.2C (November 28, 2003).



______________________________________________________________________________________
U.S. Department of Justice                                                       4
Office of the Inspector General
Evaluation and Inspections Division
background investigations in the Department: (1) managing background
investigations for political appointees, attorneys, and other personnel not
delegated to the components; (2) granting clearances for access to SCI
materials for all Department employees; (3) providing policy guidance
and training on background investigations; and (4) providing oversight of
the components’ background investigation programs. 20

      SEPS staff is divided into 4 groups, which are further subdivided
into 10 sections. (See Appendix II for a SEPS organizational chart.) In
FY 2005, SEPS had 84 employees and 7 contractors, and a budget of
$10 million. SEPS’s personnel security and compliance review functions
are carried out by four sections in the Personnel Security Group (PERSG)
and the Office of Information Safeguards and Security Oversight.

       Within PERSG, the Operations Section is responsible for
conducting adjudications of completed background investigations and
maintaining investigation files on Department employees. The Policy,
Training, and Oversight Section is responsible for drafting and
distributing official Department policy on all background investigation
and reinvestigation matters. In FY 2005, PERSG had 17 employees and
3 contractors. 21 Five of the employees were adjudicators whose positions
were funded by the components for whom they adjudicate
reinvestigations.

       Within the Office of Information Safeguards and Security
Oversight, the Compliance Review Section (CRS) is responsible for
conducting compliance reviews of all Department offices to determine
their adherence to Department security policy. In FY 2005, CRS had
three employees, including the chief. The Technical Security Section is
responsible for the security of technology used to store and transmit
classified information. Personnel in the Technical Security Section also
manage SEPS’s background investigation inventory software.

      Prior External Reviews Involving SEPS Staffing and Structure. Two
external reviews since FY 2001 relating to SEPS’s responsibilities have

       20 SCI is a classification that is more restrictive than Top Secret, often covering
information that deals with intelligence sources, methods, or activities.
       21 PERSG has lost several staffers through attrition in recent years. While it

has been given authorization to fill some of the vacancies, it did not receive any
accompanying funding, so overall staffing levels have decreased.



______________________________________________________________________________________
U.S. Department of Justice                                                       5
Office of the Inspector General
Evaluation and Inspections Division
reported that SEPS has inadequate resources and have made
recommendations for improving the processing of background
investigations. However, we found that these recommendations had not
been implemented. First, in March 2002, the Webster Commission
report raised concerns about SEPS’s inadequate resources and lack of
standing within the Department hierarchy. 22 In a footnote to the
discussion of its recommendation to create an Office of Security within
the FBI that reports to the Director, the Webster Commission stated:

       [SEPS] is responsible for developing security policy and
       overseeing its implementation in Department components,
       such as the FBI. Although we have not examined SEPS in
       detail, the program seems to suffer from many of the structural
       weaknesses that led us to recommend creation of an Office of
       Security in the [FBI], weaknesses such as inadequate
       resources and insufficient stature within the Department’s
       structure. We recommend that the Department address this
       issue. 23

       On July 15, 2004, a report issued by the National Archives and
Records Administration’s Information Security Oversight Office expressed
concern that the Department had neglected to address the Webster
Commission’s recommendation. The new report recommended that the
Department move SEPS out of JMD and commit sufficient resources to
its security programs. In his October 13, 2004, response to the National
Archives and Records Administration report, the Assistant Attorney
General for Administration agreed on the need for additional resources
but declined to move SEPS out of JMD, stating that being a part of JMD
did not hinder SEPS from fulfilling its responsibilities. 24

SEPS’s Direct Responsibilities Related to Background Investigations

      SEPS retains direct responsibility for background investigations for
all employees of the Department’s Offices, Boards and Divisions, all
employees of the United States Attorneys’ Offices (USAO), all political

      22 The Webster Commission was convened to examine the FBI’s security

programs following the detection of espionage by FBI agent Robert Hanssen.
       23 See Commission for Review of FBI Security Programs, A Review of FBI Security
Programs, March 31, 2002, p. 93, n. 34.
       24   Since this response, however, SEPS has not received additional resources.



______________________________________________________________________________________
U.S. Department of Justice                                                       6
Office of the Inspector General
Evaluation and Inspections Division
appointees, all attorneys, and certain other designated positions. 25 SEPS
is also responsible for the background investigations of some contractors.
At present, therefore, SEPS is responsible for the background
investigations of approximately 27,000 of the Department’s 103,000
employees, as well as for 7,000 contractors.

       As part of its responsibilities, PERSG obtains the required
paperwork from political appointees who do not require Senate
confirmation and certain other employees and contractors, schedules
background investigations with OPM or the FBI, submits requests for FBI
name checks, adjudicates the completed files, and processes waivers. 26, 27
As Figure 1 shows, for certain categories of cases one of the
Department’s components initiates, receives, and evaluates the field
investigation before the personnel file is sent to SEPS for adjudication.
For political appointees requiring Senate confirmation, the Office of Legal
Policy (OLP) provides SEPS the background investigation file after Senate
review. For attorneys, the Office of Attorney Recruitment and
Management (OARM) initiates and reviews the FBI field investigation.
For its employees who are not attorneys or political appointees, the
Executive Office of the United States Attorneys (EOUSA) conducts an
internal review of the OPM investigation before forwarding the file to

       25 For example, SEPS manages the background investigations of the officials
responsible for overseeing personnel background investigations at components.
       26  The FBI’s National Name Check Program (NNCP) disseminates “information
from the FBI’s Central Records System (CRS) in response to requests by federal
agencies, congressional committees, the federal judiciary, friendly foreign police and
intelligence agencies, and state and local criminal justice agencies.” [Testimony of
Robert J. Garrity, Jr., Acting Assistant Director, Record Management Division, FBI, July
10, 2003.] The FBI records maintained in the CRS consist of administrative, applicant,
criminal, personnel, and other files compiled for law enforcement purposes. The NNCP
electronically searches the requested name checks through the Universal Index (UNI)
located within the CRS, where individual names have been indexed to all investigative
and administrative cases. The names, including spelling variations, are searched
phonetically against the UNI records and matches are retrieved. The primary difference
between the National Crime Information Center, which search for state and local arrest
information and dispositions, and the NNCP is that the NNCP identifies subjects of any
ongoing federal investigations and searches all FBI records and classifications for
references to individuals.
        27 Federal regulations permit agencies to grant waivers from the background

investigation requirements of Executive Order 10450 for a limited period of time,
allowing new employees to begin working while their investigations are still in progress.
Agencies granting waivers must document which parts of the investigation have been
initiated or completed before the individual begins work. See 5 C.F.R. § 732.202(a).



______________________________________________________________________________________
U.S. Department of Justice                                                       7
Office of the Inspector General
Evaluation and Inspections Division
SEPS. Figure 1 shows the typical work flow for these responsibilities.
PERSG is responsible for initiating reinvestigations from this caseload of
27,000 employees and 7,000 contractors. Currently, all stages of the
background investigation are paper-based and manual, no imaging
functions are available to convert paper documents to digital files, and
none of the stages for managing background investigations or
reinvestigations are automated. PERSG tracks the physical location of
its files using an inventory management software application called
TRAQ. 28 Only SEPS uses the software; none of the components has
access to TRAQ.




       28   TRAQ is not an acronym; it is the full name of the software application.



______________________________________________________________________________________
U.S. Department of Justice                                                       8
Office of the Inspector General
Evaluation and Inspections Division
                                    Figure 1: Background Investigation (BI) Process



                                                                                        SEPS
                                                       Other Hiring                                                 OARM
                                                                             Initiates BIs with OPM for
                                                      Components                                               Initiates BIs for
                                                                            JMD Contractors and With
                                                      Initiate BIs for                                             Attorneys
                                                                            FBI for Political Appointees
                    Initiation



                                                          Regular
                                       EOUSA                                   Not Requiring Senate                                      White
                                                        Employees
                                     Initiates BIs                                Confirmation and                                   House/OLP
                                     for Regular                               Designated Positions                                Initiates BIs for
                                     Employees                                                                                          Political
                                                                                                                                     Appointees
                   Investigation




                                                          OPM                                                       FBI
                                           Investigates and Forwards Results                         Investigates and Forwards Results
           PHASES




                                      EOUSA                                                                        OARM               Senate
                                   Reviews Files of                                                               Reviews          Reviews Files
   Preadjudication




                                       Regular                            Files of Regular Employees (Except       Files of         of Political
                                     Employees                                                                    Attorneys         Appointees
                                                                         EOUSA’s), Designated Positions, and
                                                                                                                                     Requiring
                                                                          Political Appointees Not Requiring
                                                                                                                                   Confirmation
                                                                           Confirmation Go Directly to SEPS


                                                                                                                                        OLP
                    Adjudication




                                                                                      SEPS
                                                                                Adjudicates the BIs



                                                                         SEPS May Approve NSI Clearances



                                                                         SEPS May Approve SCI Clearances


                                   Notes

                                   “Regular Employees” refers to personnel who are not attorneys or political appointees.

                                   “Designated Positions” refers primarily to high-level officials and officials responsible for
                                   overseeing personnel background investigations at components.

                                   OARM is the Office of Attorney Recruitment and Management.

                                   OLP is the Office of Legal Policy, which serves as the liaison to the White House on political
                                   appointments.


Source: OIG



______________________________________________________________________________________
U.S. Department of Justice                                                       9
Office of the Inspector General
Evaluation and Inspections Division
SEPS’s Responsibilities for Policy Guidance

       PERSG is responsible for interpreting federal policies and guidance
on all issues related to background investigations and reinvestigations.
PERSG is also responsible for issuing Department policies for all
Department components to follow. DOJ Order 2610.2A, dated
August 21, 1990, is currently the official Department policy on
background investigation and reinvestigation procedures. 29 However,
from 1990 through 2005, SEPS has issued over 40 separate update
memorandums to supplement or amend the order. PERSG also provides
formal training on the guidance and adjudicative standards for
background investigations and reinvestigations, and provides informal
guidance, primarily over the phone or via e-mail, to component staff.

Authorities Delegated by SEPS to the Components

       SEPS has delegated to components’ personnel security staff the
authority to adjudicate background investigations and reinvestigations
for their employees and contractors, and the authority to grant waivers
so new employees can begin work before their investigations are
complete. In total, 20 components have delegated adjudication
authority – 7 have the authority for employees and contractors, and 13
have the authority only for contractors (see Appendix I).

       Approximately 76,000 employees, as well as a large number of
contractors, work in the components with delegated authority. 30 SEPS
also has delegated to some components the authority to grant security
clearances up to and including the level of Top Secret, upon an
individual’s successful completion of an investigation. When delegating
authority to a component, SEPS issues a memorandum that specifies the
authorities being delegated as well as any restrictions imposed. The
memorandum specifies that SEPS retains oversight of the delegated
areas.

       29  On September 15, 1994, the 1990 DOJ Order was amended to change two
sections, but the original order was not reissued.
       30 SEPS is able to verify the number of Department employees because all

employees are paid through the National Finance Center payroll system and are tracked
through headquarters personnel and security offices. However, SEPS cannot determine
the number of Department contractors because contractors are not tracked centrally
through either personnel or security offices.



______________________________________________________________________________________
U.S. Department of Justice                                                      10
Office of the Inspector General
Evaluation and Inspections Division
SEPS’s Oversight of Components With Delegated Authority

       Although SEPS delegates to components the authority for
background investigations, it remains responsible for overseeing the
function. As described below, the various elements of SEPS’s oversight
of the components with delegated authority are carried out by CRS and
PERSG.

       CRS Oversight Functions. SEPS’s primary oversight mechanism is
the security compliance review conducted by its Compliance Review
Section (CRS). CRS’s three Security Specialists are responsible for
conducting security compliance reviews of the Department’s 3,000 to
3,500 offices and sub-offices worldwide. They travel to components’
locations, conduct the security compliance reviews, write reports
describing the results of the review, and follow up with components that
require corrective action. In selecting offices to review, CRS considers:
(1) whether the office handles classified information; (2) whether SEPS
has ever reviewed the office or when it last reviewed; (3) whether the
office recently moved into a new building; and (4) the size of the office
(larger offices are typically reviewed more often). CRS also considers
input it receives from Security Programs Managers on potential security
risks or problems at offices in their components. CRS issues a list of the
offices it plans to review to the components’ Security Programs Managers
at the beginning of each fiscal year.

      Each review typically lasts 2 to 3 days and covers physical,
personnel, contractor, information, computer, and communications
security as well as safety and health and continuity of operations and
occupant emergency plans. The highest priority of the review is ensuring
that the physical security of Department offices is adequate and in
compliance with applicable regulations. 31 Only a small portion of most




        31 SEPS defines physical security as “the application of physical barriers and

control procedures as preventive measures or countermeasures against threats to
resources and information.” SEPS Security Program Operating Manual, revised May
2005, p. 89.



______________________________________________________________________________________
U.S. Department of Justice                                                      11
Office of the Inspector General
Evaluation and Inspections Division
compliance reviews (3 to 4 hours) is dedicated to reviewing personnel
security issues. 32

       Before visiting a site, the CRS staff reviews a sample of background
investigation files maintained by the component’s headquarters office.
The CRS staff estimated that, for large offices, it requests up to one third
of the employee files for review and a higher percentage for smaller
offices. While on site, Security Specialists use checklists for each of the
security disciplines to guide them in conducting interviews with relevant
security officials and recording findings and observations. The Personnel
Security Checklist covers the following areas: (1) the minimum
requirements of a waiver; (2) the background investigation requirements
for temporary appointments; (3) the number of national security and
public trust positions; (4) resignation and reinstatement procedures;
(5) reinvestigation processes; (6) national security information access,
training, and security clearances; and (7) SCI access procedures. The
CRS staff asks for a roster of locally hired contractors, and checks the
files kept on site. CRS will also talk to the General Services
Administration about shared contract staff, such as janitors. Security
Specialists interview the individual responsible for conducting security
clearance briefings, and may also interview one or more employees with
security clearances, to ensure that employees who access classified
materials have received required training and signed required disclosure
forms.

      The CRS staff compiles its findings, observations, and
recommendations into written reports and sends them to the
component’s Security Programs Manager for corrective action. 33 CRS has
no requirement to issue reports within a particular time frame, but CRS
has established an internal goal of issuing its reports approximately 4 to
6 weeks after the completion of the site visit.



        32 The physical security portion of the review typically lasts the longest and

requires walking around the perimeter of the building and examining exterior and
interior doors, windows, locks, alarms, security cameras, guard services,
magnetometers, X-ray equipment, and air intake valves; documenting security
weaknesses with a digital camera; and often meeting with the building manager to
discuss building and office access control procedures.
      33 Findings are direct violations of federal regulations, public laws, or

Department security policy that require corrective action, while observations are the
CRS staff’s suggestions on improving security.



______________________________________________________________________________________
U.S. Department of Justice                                                      12
Office of the Inspector General
Evaluation and Inspections Division
      There are no Department regulations or orders that establish
requirements for the security compliance reviews or CRS’s authority for
enforcing its security findings. 34 SEPS has not established a formal
performance measure for the number of security reviews it conducts
each year, but has an informal internal goal of 60 reviews a year. SEPS
also established an internal requirement for Security Programs Managers
to respond in writing to CRS’s findings within 60 days of the report
publication date. CRS staff may conduct a follow-up review after
components respond to ensure that recommendations were addressed. 35

       PERSG Oversight Functions. In addition to the CRS compliance
reviews, PERSG also conducts some oversight of the components with
delegated authority. PERSG receives yearly reports from OPM on the
percentage of adjudications each component is completing within 90
days, as regulations require. PERSG can also request that OPM perform
an appraisal, or substantive audit, of a component’s ability to perform
suitability adjudications. For example, PERSG requested an appraisal of
the ATF’s performance following its transfer to the Department. OPM
certified that the ATF was performing these duties well. The results of
this appraisal led to PERSG’s decision to delegate to the ATF the
authority to perform investigations and adjudications, and to grant
security clearances up to and including the level of Top Secret.

       Oversight Enforcement Mechanisms. If any of the oversight
mechanisms described above indicates that a component is not adhering
to Department security policy, SEPS may recommend that the
Department Security Officer modify or revoke the component’s delegation
of authority. The revocation option, used rarely, is the only sanction
available to SEPS to ensure that components with delegated authority
follow policy. It was last used in 2000 to transfer the responsibility for
conducting field investigations from the Drug Enforcement
Administration (DEA) to OPM. This decision was made after an OPM
review of the DEA’s program revealed that many of the investigations the


       34DOJ Order 2600.2C, issued November 28, 2003, establishes the
Department’s security programs and the associated responsibilities. However, the
Order does not mention CRS.
       35 CRS officials told us that they try to schedule follow-up reviews concurrently

with regular security compliance reviews. During follow-up reviews, CRS focuses on the
areas that it previously found deficient, as well as any new issues or security
vulnerabilities that have surfaced since the original review.



______________________________________________________________________________________
U.S. Department of Justice                                                      13
Office of the Inspector General
Evaluation and Inspections Division
DEA conducted did not meet government standards for sufficiency or due
process.

Recent Developments and Impending Changes in Background
Investigations

       Three recent developments have the potential to significantly affect
background investigations and clearances. These developments are the
passage of the Intelligence Reform and Terrorism Prevention Act of 2004
(the Intelligence Reform Act, Pub. L. 108-458), the issuance of Homeland
Security Presidential Directive 12 (HSPD-12), and OPM’s e-Clearance
initiative.

       The Intelligence Reform Act. On July 22, 2004, the National
Commission on Terrorist Attacks Upon the United States (the 9/11
Commission) released a report documenting numerous intelligence and
security failures throughout the federal government and made over 40
recommendations for reforming the intelligence community and the
intelligence-related activities of the United States government. Included
among them was a recommendation that “[a] single federal agency
should be responsible for providing and maintaining security clearances,
ensuring uniform standards – including uniform security questionnaires
and financial report requirements, and maintaining a single database.” 36

        Several of the 9/11 Commission’s recommendations were
incorporated into the Intelligence Reform Act. These provisions have two
major goals – to consolidate background investigations and the issuance
of security clearances under a single government agency and to
significantly reduce the time it takes to complete investigations. The Act
first requires the President to name a single agency to be responsible for
government-wide oversight of the security clearance process. This
agency will also be responsible for standardizing and streamlining the
process across agencies and ensuring reciprocal recognition of security
clearances across agencies. In June 2005, the President assigned this
role to the Office of Management and Budget (OMB). The Act also
prohibits individual agencies from imposing any investigative or
adjudicative requirements beyond those outlined in any Executive Orders
establishing security requirements for access to classified information.

      36 National Commission on Terrorist Attacks Upon the United States, The 9/11

Commission Report, W.W. Norton & Co., 2004, p. 422.



______________________________________________________________________________________
U.S. Department of Justice                                                      14
Office of the Inspector General
Evaluation and Inspections Division
      In addition to designating an oversight agency, the Act requires the
President to designate a single federal agency to be responsible for
conducting background investigations on all federal employees and
issuing all security clearances. 37 These investigations are to be
conducted in accordance with the standards to be developed by OMB.
The investigating agency is also expected to create a single, government-
wide database to store information on the background investigations and
clearance status of all federal employees.

      In addition, the Act sets strict deadlines for the completion of
various phases of the investigation. The Act mandates that, by the end
of 2006, 80 percent of investigations must be completed within an
average of 90 days and adjudications within an average of 30 days, for an
overall average of 120 days for a case to be completed. By the end of
2009, 90 percent of investigations must be completed in an average of 40
days and adjudications in an average of 20 days, for an overall average of
60 days for a case to be completed.

      HSPD-12. On August 27, 2004, President Bush signed HSPD-12,
which requires a standardized form of official identification for both
government employees and contractors. Implementation, in stages, will
begin on October 27, 2005. The Office of the Chief Information Officer
was designated to coordinate implementation for the Department, with
SEPS providing input on personnel security issues. The directive states
that official identification cards necessary to access government offices
should be issued only to those employees with certain pre-employment
background checks completed and that the validity of these checks must
be updated or verified every 5 years. OMB is responsible for issuing
government-wide implementation guidance on the directive.

      Originally, the minimum requirement for issuing an identification
card was that all National Agency Checks be completed, with additional
paper inquiries completed after employment. 38 This type of background
investigation is called the NACI (National Agency Checks with Inquiries).

       37    As of the date of publication, the President had not designated an agency to
fill this role.
        38 The minimum National Agency Checks required are the Security/Suitability

Investigations Index, Defense Clearance Investigation Index, FBI Name Check, and the
FBI National Criminal History Fingerprint check. The minimum Inquiries required are
of employment, education, residence, references, and checks of law enforcement
databases where the applicant has lived.



______________________________________________________________________________________
U.S. Department of Justice                                                      15
Office of the Inspector General
Evaluation and Inspections Division
As of FY 2004, OPM reported that the NACI process was taking an
average of 89 days to complete. In August 2005, OMB reduced the pre-
employment requirement. Currently, although the NACI must be
initiated before a new employee enters on duty and the fingerprint check
completed, an agency can issue an identification card if it has not
received the remaining elements of the NACI within 5 days.

       e-Clearance Initiative. OPM has proposed a transition to electronic
recordkeeping to minimize the burden of background investigations. It is
focusing on three specific improvements to the paper-based
recordkeeping process. The first element of this program, called e-QIP,
would provide automated online versions of the different background
investigation questionnaires. Under OPM’s current system, an individual
must fill out the security questionnaire from scratch each time an
investigation is required, and OPM must manually enter the data into its
system. Once fully implemented, e-QIP would allow for electronic
transmission of the forms to appropriate agencies and for maintenance of
historical data. OPM has further proposed the creation of an electronic
version of the form used to update the original application, a change that
it envisions would save both time and money when reinvestigations are
required.

       The second element calls for a government-wide database that
would allow personnel security staff to verify the clearances of
individuals in most government agencies. 39 The ultimate goal is for the
system to display clearance information in real time. The third element
of the initiative calls for the imaging of all documentation related to
background investigations. Imaging would allow for electronic
transmittal of records to the appropriate offices, eliminating mailing
delays. It would also allow OPM to maintain historical information.
Providing quick access to previous investigations would minimize
requests for duplicate investigations, thereby saving time and money.
OPM has asked all government agencies that conduct background
investigations to image the files of completed background investigations.




       39 OPM currently uses a program called the Clearance Verification System. As

described by SEPS, agencies provide updated information to OPM on their employees’
clearance levels approximately once every 6 months.



______________________________________________________________________________________
U.S. Department of Justice                                                      16
Office of the Inspector General
Evaluation and Inspections Division
        PURPOSE, SCOPE, AND METHODOLOGY OF OIG REVIEW



Purpose of the OIG Review

      The OIG conducted this review to examine SEPS’s background
investigation program. Specifically, we evaluated SEPS’s management of
four program areas: (1) managing background investigations of political
appointees, attorneys, and other personnel whose investigations are not
delegated to the components; (2) granting clearances for access to SCI
materials for all Department employees; (3) providing policy guidance
and training on background investigations; and (4) providing oversight of
the components’ background investigation programs.

Scope

       This review focused on the operations of SEPS’s Personnel Security
Group and the Compliance Review Section. We examined functions that
are currently SEPS’s responsibility and also analyzed several areas that
will become SEPS’s responsibility once enacted legislation takes effect.
Our scope did not include reviewing individual files to evaluate the
quality of the field investigations and adjudications, nor did we evaluate
SEPS’s performance in its other areas of responsibility, such as physical
security, communications security, and technical security.

Methodology

      Interviews. We interviewed Security Programs Managers from 12
components, as well as staff from SEPS, the FBI, the ATF, the OIG, JMD,
and the Office of the Deputy Attorney General.

       Interviews With Security Programs Managers. We conducted
telephone interviews with Security Programs Managers from the following
components: the FBI, ATF, BOP, USMS, DEA, EOUSA, Executive Office
of the United States Trustees (EOUST), Executive Office for Immigration
Review (EOIR), OIG, Criminal Division, and Civil Division.

       Interviews With SEPS staff. We interviewed the Director and
Executive Officer of SEPS. From the Personnel Security Group, we
interviewed the Assistant Director. We also interviewed the Chiefs of the
Operations and the Policy, Training, and Oversight sections. From the

______________________________________________________________________________________
U.S. Department of Justice                                                      17
Office of the Inspector General
Evaluation and Inspections Division
Office of Information Safeguards and Security Oversight, we interviewed
the Assistant Director. From the Compliance Review Section, we
interviewed all three Security Specialists, including the CRS Chief. We
also spoke with two former Security Specialists. From the Technical
Security Section, we interviewed the managers of the software application
used to track background investigations.

      Interviews With FBI staff. We interviewed the Unit Chief and staff
from the National Name Check Section of the Records Management
Division at FBI Headquarters.

      Interviews With ATF staff. We interviewed the Chief of the ATF’s
Personnel Security Branch and two individuals from the Software
Management Branch, Information Services Division.

      Interviews With OIG staff. We interviewed the OIG’s Personnel
Security Specialist and Security Programs Manager, who is one of the
former Compliance Review Section staff members.

      Interviews With JMD staff. We interviewed the Chief Information
Officer, the Deputy Chief Information Officer, a contractor working in
conjunction with the Office of the Chief Information Officer, and an
employee from JMD’s Management and Planning Staff.

       Interview With the Office of the Deputy Attorney General staff. We
interviewed an Associate Deputy Attorney General.

       Site visits. In early March 2005, the OIG review team
accompanied the CRS Chief on a security compliance review of the ATF
and USMS in Louisville, Kentucky. The compliance review included two
ATF offices – the Louisville field division and a sub-office located in
Lexington, Kentucky – and the USMS’s office in the federal courthouse in
Louisville. We also attended a May 2005 Security Programs Managers
training conference.

       Documentation review. We reviewed numerous documents,
including internal SEPS documents, Department security policies,
security updates and notices to Security Programs Managers from SEPS,
budget requests, customer satisfaction surveys, position descriptions,
external reports on security and SEPS, congressional testimony, pending
legislative changes to personnel security, OPM’s timeliness and workload


______________________________________________________________________________________
U.S. Department of Justice                                                      18
Office of the Inspector General
Evaluation and Inspections Division
requirements for the Department, and online information regarding
SEPS.

      Data analysis. After requesting data from SEPS’s background
investigation inventory software, we analyzed the data using SPSS
software and Microsoft Excel and Access. Our data analysis included
timeliness, background investigation processing, reinvestigation
compliance, and projections for current and anticipated SEPS workload.
We provided the analyzed data and our interpretation to SEPS for
concurrence prior to issuance of the draft report.




______________________________________________________________________________________
U.S. Department of Justice                                                      19
Office of the Inspector General
Evaluation and Inspections Division
                          RESULTS OF THE REVIEW


       In FY 2004, SEPS met federal regulatory requirements
       for adjudicating background investigations within 90
       days in 99 percent of its highest priority cases (political
       appointees and attorneys) and in 85 percent of cases
       overall. SEPS also generally met Department needs for
       processing SCI clearances and providing clearance
       verifications. However, SEPS did not fully meet other
       important responsibilities related to policy and
       oversight. The Department’s personnel security policy,
       amended by more than 40 memorandums issued over
       the past 15 years, is inconsistent, outdated, and not
       widely and readily accessible.      In addition, SEPS’s
       program of security compliance reviews and its
       enforcement authority are too limited to ensure that
       components with delegated authority comply with
       regulations and policy. Also, because SEPS relies on
       outdated technology to manage its own files and there is
       no     Department-wide     database     of    background
       investigation information, SEPS has limited ability to
       manage and oversee the background investigation
       process across the Department.

Workload and Priorities

       From FY 2000 to FY 2004, portions of SEPS’s background
investigation workload more than doubled, particularly in the areas of
granting clearances and the initiation and adjudication of contractor
background investigations (see Table 1). In response to the increasing
background investigation caseload, PERSG designated four of its
responsibilities as being its highest priorities: (1) adjudication of the
background investigations and reinvestigations of political appointees
and attorneys; (2) adjudication of requests for access to SCI material;
(3) certification of clearances to other agencies; and (4) processing
requests for waivers. As lesser priorities, SEPS adjudicates background
investigations for other new employees, adjudicates reinvestigations for




______________________________________________________________________________________
U.S. Department of Justice                                                      20
Office of the Inspector General
Evaluation and Inspections Division
  employees, adjudicates all contractor cases, and develops policy
  guidance. 40

   Table 1: SEPS’s Background Investigation (BI) and Reinvestigation (RI) Workload
                                  FY 2000-2004
                                                                                    Percentage
                                      FY        FY        FY       FY       FY        Change
                                     2000      2001      2002     2003     2004     2000-2004
Employees
  BI Initiations                     1,286      1,675     2,382    2,004    1,784         38.7
  Waivers                              558        876     1,081    1,224    1,142        104.7
  BI Adjudications                   1,188      1,795     1,407    1,698    2,237         88.3
  Clearance Actions Taken              382        536       892    1,140    1,609        321.2
  RI Initiations                     1,321      3,000     2,454    3,051    2,422         83.4
  RI Adjudications                   1,508      1,421     1,743    2,266    1,983         31.5
Contractors
  BI Initiations                       291        326       821      984    1,263        334.0
  BI Adjudications                     446        421       579      784    1,033        131.6
  RI Initiations                        21          8        25       24       12        -42.9
  RI Adjudications                      17         14        14       25       24         41.2
TOTAL ACTIONS                        7,018     10,072    11,398   13,200   13,509         92.5

  Source: PERSG TRAQ

        SEPS’s SCI clearance workload also increased dramatically from
  2000 to 2004. PERSG retains the sole authority within the Department
  to grant SCI clearances and to confirm these clearances for personnel
  who require SCI access to other components or other federal agencies.
  Table 2 shows SEPS’s SCI clearance workload from calendar years 2000
  through 2004.

                       Table 2: SEPS’s SCI Clearance Workload for
                             Calendar Years (CY) 2000-2004
                                                                                    Percentage
                                        CY        CY       CY      CY       CY        Change
                                       2000      2001     2002    2003     2004     2000-2004
SCI Clearances Processed               1,251     2,196    2,457   3,129    3,113         148.8
SCI Clearances Verified                  810     1,261    1,667   2,005    2,053         153.5
TOTAL ACTIONS                          2,061     3,457    4,124   5,134    5,166         150.7

  Source: SEPS CRS

          40 PERSG places less emphasis on the adjudication of these routine

  investigations because waivers are granted for more than half of the new employees the
  Department hires to fill positions other than law enforcement officer positions. The
  waivers allow the employees to begin work before their background investigations are
  complete.



  ______________________________________________________________________________________
  U.S. Department of Justice                                                      21
  Office of the Inspector General
  Evaluation and Inspections Division
Adjudication Timeliness

       We found that SEPS’s adjudication of background investigations
was generally timely. We examined SEPS’s processing of 55,197 actions
on background investigations for which it retained authority during the 5
fiscal years from FY 2000 through FY 2004 (see Table 1). The percentage
of adjudications of initial background investigations for employees and
contractors processed by SEPS within 90 days for each of the fiscal years
is shown in Table 3. In FY 2004, SEPS adjudicated 85 percent of all
employee background investigations within 90 days.

              Table 3: SEPS Background Investigation Adjudications
                           Completed Within 90 Days
                                 FY 2000-2004

                             Percentage completed in 90 days

                   FY             FY             FY             FY            FY
                  2000           2001           2002           2003          2004
Employees          94             90             73             75            85

Contractors         83            81             60             73             96

Source: PERSG TRAQ


      In discussions with SEPS staff responsible for adjudications, we
asked why some cases were not processed within 90 days. SEPS staff
explained that some cases were delayed because SEPS lacked the staffing
needed to perform all adjudications within the required time and that, in
other cases, decisions were delayed pending the receipt of documentation
or until issues related to the applicant’s suitability were resolved. For
example, when a background investigation identified credit issues, a final
decision on the adjudication might be delayed until the employee
documented 3 months of on-time payments.

      Staffing and Resources Not Increased Commensurate With
Workload. As described in the background section, two previous
external reports from the Webster Commission and the National Archives
and Records Administration found significant shortfalls in SEPS staffing.
SEPS requested additional staffing both before and after those reviews.
Between FY 2000 and FY 2005, SEPS’s annual budget requests included
additional staff and provided extensive performance and workload
measures to justify the requests. For example, SEPS provided studies
comparing its staffing levels to those of three other Department

______________________________________________________________________________________
U.S. Department of Justice                                                      22
Office of the Inspector General
Evaluation and Inspections Division
components with comparable adjudications responsibilities and to other
components or agencies with comparable security responsibilities. As
Table 4 shows, in 2001 SEPS had the smallest ratio of adjudications staff
to background investigation caseload. 41 Despite the recommendations
from these reports, SEPS did not receive the requested additional
resources, except for one additional position in the CRS.

            Table 4: PERSG’s 2001 Comparison of Its Staffing Levels to
                         Three Department Components

                                Caseload (Employees                   Average Cases Per
                                  and Contractors)     Adjudicators      Adjudicator
 SEPS                                  33,000                9               3,667
 BOP                                   51,143               17               3,008
 DEA                                   22,700               26                873
 INS*                                  41,000               47                872

        Source: PERSG
        * On March 1, 2003, the Immigration and Naturalization Service (INS) was
        transferred to the Department of Homeland Security.


      SEPS’s Workload Management. Despite its low staffing levels,
SEPS has taken several steps to manage its increasing case workload
more effectively. These steps include redirecting personnel assigned to
other duties to adjudications, and identifying and focusing its available
resources on its highest priority cases. Specifically, PERSG staff stated
that they relied on a combination of staff redirected from other duties,
overtime from adjudicators, and assistance from employees in other
sections of SEPS with prior adjudicative experience. For example,
because they had experience as adjudicators, the PERSG Chief for Policy,
Training, and Oversight and a Security Specialist from this section were
assigned, as needed, to process requests for SCI clearances and other
adjudication cases. Also, the Operations Section scheduled one day a
week when all PERSG staff devoted the entire day to adjudicating
backlogged cases. The size of the adjudications backlog has diminished
since October 2003 (see Table 5).




       41 SEPS must also process the SCI clearances of all Department components.

In CY 2004, there were 5,166 cases, as shown in Table 2.



______________________________________________________________________________________
U.S. Department of Justice                                                      23
Office of the Inspector General
Evaluation and Inspections Division
               Table 5: PERSG FY 2004 Adjudication Pending Caseload
                      Employee Cases                 Contractor Cases
                   Not Yet                        Not Yet
                 Screened by    Pending         Screened by      Pending
   Months           SEPS*     Adjudication         SEPS*      Adjudication      Total
Oct. 2003           1,072         698                98            286          2,440
Nov. 2003           1,039         682                72            287          2,367
Dec. 2003           1,143         677               35             272          2,399
Jan. 2004            970          679                63            200          2,112
Feb. 2004           1,073         675                 –              –          1,748
Mar. 2004            846          694                50            76           1,742
Apr. 2004            853          683                 –              –          1,536
May 2004             933          703                58            169          2,032
June 2004           1,059         562               101            165          2,052
July 2004           1,112         570                95             98          1,973
Aug. 2004            968          547                89            91           1,786
Sept. 2004          1,005         545                98            98           1,881
PERCENTAGE
                     -6.3           -21.9            0.0            -65.7       -22.9
CHANGE
Source: SEPS
*These cases refer to those that PERSG had not yet reviewed.

      SEPS does not operate on a fee-for-service basis (i.e., the
components do not directly reimburse SEPS for the cost of the services it
provides). However, since 1992, Department components have
contributed funding to enable SEPS to hire staff dedicated to managing
reinvestigations. Of the nine adjudicator positions, five are assigned to
reinvestigations and are paid for proportionally by the components. The
components also contribute to a fund from which SEPS pays staff
overtime for conducting adjudications. In FY 2004, the components
agreed to contribute $22,000 to the overtime fund. 42

       Also, as described previously on pages 20 and 21, SEPS
established priorities for the processing of cases. The priorities were (in
order) political appointees, attorneys, other FBI investigations (i.e., not
political or attorney positions), OPM national security information (NSI)

        42 SEPS is compensated directly only for its costs incurred; money that is not

used is returned to the components. Actual costs were not available for FY 2004. Total
overtime costs have never exceeded the initial overtime fund contributions. SEPS does
not track adjudication overtime separately from other overtime.



______________________________________________________________________________________
U.S. Department of Justice                                                      24
Office of the Inspector General
Evaluation and Inspections Division
investigations, other OPM investigations, employee reinvestigations, and
contractors. Our review of the processing times for cases involving these
categories of employees found that SEPS is processing the highest
priority cases first (see Table 6). 43 For example, based on records
contained in TRAQ, we determined that SEPS processed over 99 percent
of its highest priority cases (political appointees and attorneys) within
90 days.

              Table 6: SEPS Adjudication Processing by Priority Level

                                            Percentage Completed in 90 days
  Adjudication Priorities          FY           FY        FY        FY       FY
  (Highest to Lowest)             2000         2001      2002     2003      2004
  Political appointees                100         100       100         100         —
  Attorneys                            99          99        99          99        100
  FBI NSI investigations              100          88        94          92         96
  OPM NSI investigations               92          91        85          74         79
  Other OPM investigations             91          85        48          62         81
  Employee reinvestigations            84          83        59          48         54
  Contractors                          83          81        60          73         96
       Source: PERSG TRAQ


      To determine whether SEPS met OPM timeliness expectations, we
reviewed FY 2004 correspondence between PERSG and the OPM
Investigations Program Specialist assigned to the Department’s oversight.
The OPM Specialist noted that SEPS’s performance (85 percent of
adjudications completed in less than 90 days) and that of the
Department as a whole (87 percent completed in less than 90 days)
“exceed[ed] compliance expectations” and was “meeting” an “important
goal.” We also reviewed a recent PERSG customer service survey and
conducted an additional survey of 12 Security Programs Managers. All
12 indicated that they were generally satisfied with the service SEPS
provided in processing background investigations and security
clearances. Separately, in SEPS’s own customer service survey of

       43  Contractor cases were sometimes processed faster than other higher priority
cases because, although cases are generally processed according to priority, SEPS also
reviews field investigations as they are received to identify cases for which there are no
potentially derogatory issues and adjudicates those cases as quickly as possible.
Because over 90 percent of contractors are hired for lower risk positions with limited
background checks that result in no derogatory information, those cases can be quickly
adjudicated.



______________________________________________________________________________________
U.S. Department of Justice                                                      25
Office of the Inspector General
Evaluation and Inspections Division
Security Programs Managers, PERSG’s responsiveness in obtaining SCI
access and certifying national security clearances to other components
and agencies were the two highest rated elements. 44

       Overall, we believe that SEPS has taken reasonable steps to use
the resources available to manage its case processing workload, and
OPM and the components have been generally satisfied with SEPS’s
performance. SEPS met regulatory timeliness requirements 85 percent
of the time in FY 2004 for the background investigations for which it is
directly responsible and is meeting Department needs by processing SCI
clearances and clearance verifications as quickly as possible. In only
15 percent of the employee cases and 4 percent of the contractor cases
did SEPS not meet OPM’s timeliness requirements. However, as we
discuss in greater detail below, the Intelligence Reform Act and HSPD-12
directed changes that will, when implemented, require faster processing
times and increase the number of case processing stages that SEPS must
accomplish to complete background investigations.

Policy Guidance

      The Department’s personnel security policy, amended by more
than 40 memorandums issued over the past 15 years, is inconsistent,
outdated, and not widely and readily accessible. SEPS, which is
responsible for issuing policy and providing guidance for the
Department, issued the last complete revision of the Department’s
security policy, known as DOJ Order 2610.2A, in 1990. Although the
basic order has not been updated, from 1990 through 2005 SEPS issued
more than 40 memorandums that revised or supplemented the order.
Because the changes have been issued in a piecemeal fashion, there is
no single, consolidated document that contains all current guidance for
component security officials and other Department employees to consult.

       Despite the many revisions and supplements, the guidance has not
been updated to reflect recent changes in the security environment,
according to PERSG staff. For example, the guidance does not require
the reinvestigation of all contractors, which SEPS has long considered


        44 There are no regulatory timeliness requirements for these processes, but they

are often time-sensitive. SEPS reported that it currently has two employees who
manage clearance certifications as a collateral duty, one for 65 percent of duties, and
one for 25 percent.



______________________________________________________________________________________
U.S. Department of Justice                                                      26
Office of the Inspector General
Evaluation and Inspections Division
necessary to ensure the Department’s security. 45 In customer service
surveys conducted by the OIG and SEPS, Security Programs Managers
and adjudicators expressed frustration with having to work with
outdated and confusing materials. In responses to our survey, for
example, Security Programs Managers pointed out that SEPS’s
memorandums often modify or correct prior memorandums, making it
difficult to determine whether the order or one of the various
memorandums is the correct guidance. In PERSG’s 2004 customer
service survey, Security Programs Managers rated PERSG lowest in the
area of policy guidance.

      According to SEPS employees, SEPS has not consolidated the
updates it has issued into a revised policy because its staff in the Policy,
Training, and Oversight Section were dedicated to processing SEPS’s
background investigation caseload. In December 2004, in response to an
inquiry related to another OIG review, SEPS officials told us that they
had begun consolidating and updating the existing guidance on
employees. However, as of July 2005, the revised DOJ Order 2610.2A
was still undergoing review. Moreover, SEPS had not worked on new
requirements for contractors – and for visitors – since March 2005.
Further, SEPS staff told us that the order cannot be finalized until OPM
approves SEPS’s proposed minimum level of background investigation for
hiring public trust employees. SEPS was also waiting for OMB guidance
on implementation of HSPD-12 since this guidance may supersede
SEPS’s proposed changes to both DOJ Order 2610.2A and contractor
policy.

      Limited Use of Technology. SEPS has not effectively used available
technology to disseminate policy and guidance. We examined SEPS’s
presence on the Department’s intranet and found that the Personnel
Security page consisted solely of a list of tasks that PERSG handles.
Although adjudicative guidelines were available on the SEPS site as an
appendix to the Security Program Operating Manual and several relevant
regulations and executive orders were listed on the Security Policies
page, the Personnel Security page did not contain a link or cross-
reference to this information. Further, that page did not provide


         45 SEPS has taken initial steps to draft a reinvestigation policy for all

Department contractors, but inadequate staffing and potential changes in federal
standards under HSPD-12 have delayed the drafting. SEPS had already identified a
need for a review of contractor reinvestigation guidance when we interviewed SEPS
officials in March 2004.



______________________________________________________________________________________
U.S. Department of Justice                                                      27
Office of the Inspector General
Evaluation and Inspections Division
Department personnel security policies, did not identify the names or
dates of Department policies currently in effect, and did not provide
answers to commonly asked questions. Because this information was
not readily available on the intranet, PERSG and CRS staff provided
guidance by answering case-specific questions from components or faxed
copies of memorandums upon request.

      We also examined the CRS section of the SEPS intranet and found
that with the exception of the Security Program Operating Manual issued
in May 2005, it contained only limited and outdated information. When
we interviewed CRS staff in February 2005, they noted that they had
requested that copies of the checklists used to conduct compliance
reviews, the package of information sent to Security Programs Managers
when a compliance review is announced, and training materials be
posted on the web site.

      PERSG’s 2004 customer service survey also identified
shortcomings in online guidance. In particular, several components
commented on SEPS’s failure to use the intranet effectively. For
example, one component stated that “PERSG is behind the times when it
comes to posting information to the DOJ intranet. It would be helpful if
personnel security information was made available.”

       Our interviews with SEPS staff identified three reasons for the
delays in posting information. First, SEPS gave no priority to the posting
of information on its web site. Second, SEPS did not clearly define
internal responsibilities and approval processes for posting information.
Third, SEPS officials did not follow up to ensure that approved
information was posted to the web site.

       In June 2005, we contacted an official from the Department’s
Office of the Chief Information Officer (OCIO) to determine what the
procedures for posting information on the web site were. 46 An OCIO


       46  A 2005 Departmental restructuring transferred the e-Gov staff from the
Department’s library to the OCIO. The e-Gov staff is responsible for posting information
from the Offices, Boards, and Divisions on the intranet. Individual offices are
responsible for approving content prior to submitting documents to be posted; the
e-Gov staff converts that content to a format appropriate for posting, and ensures that
information is also accessible to disabled users. Many of the larger components or
offices have the ability to post information directly, without contacting the e-Gov staff
for assistance.



______________________________________________________________________________________
U.S. Department of Justice                                                      28
Office of the Inspector General
Evaluation and Inspections Division
official stated that approved information submitted in the required
format would be posted within a few days of receipt. In July 2005, we
revisited the web site to determine whether SEPS had begun posting
information. We found that the May 2005 Security Program Operating
Manual had been posted. However, other information that CRS staff told
us in February 2005 had been submitted for internal SEPS approval was
still not on the web site.

SEPS’s Oversight of Components With Delegated Authority

       SEPS has not implemented an effective oversight program to
ensure that components with delegated authority to adjudicate
background investigations comply with regulations and policy regarding
personnel security. SEPS has delegated to 20 components the authority
to perform adjudications and grant security clearances for employees or
contractors, but SEPS remains responsible for conducting oversight to
ensure that the components are carrying out their delegated authority in
accordance with Department regulations. SEPS receives an annual
statistical report from OPM on the Department’s performance in meeting
the 90-day adjudication standard. However, SEPS’s primary method of
overseeing components’ operations is the security compliance reviews
conducted by CRS. The CRS reviews are limited both in number and in
scope of the examination related to personnel security. Further, both
SEPS and the components’ Security Programs Managers have limited
authority to ensure that corrective actions are taken.

       SEPS Conducts Few Security Compliance Reviews. Overall, SEPS
inspects less than 1 percent of Department offices each year. According
to the CRS Chief, SEPS’s internal goal is to conduct 60 security
compliance reviews each year. However, with a staff of only three
Security Specialists and an annual travel budget of $60,000, CRS has
been unable to meet this goal. In the past 3 years, CRS has achieved its
goal of conducting 60 reviews only once, completing an average of 39




______________________________________________________________________________________
U.S. Department of Justice                                                      29
Office of the Inspector General
Evaluation and Inspections Division
compliance reviews each year (Table 7). 47 At that rate, it would take
SEPS approximately 75 to 90 years to inspect all of the Department’s
estimated 3,000 to 3,500 offices.

            Table 7: CRS Reviews Conducted in Calendar Years 2002-2004

                                                                               Percentage of
                    Component Offices Reviewed                        Total     Department
Year               (Number of Reviews Conducted)                     Reviews      Offices
2002    Civil Division (1), Office of Community Oriented Policing      61           2.0
        Services (1), Criminal Division (2), Civil Rights
        Division (1), DEA (19), Environmental and Natural
        Resources Division (1), EOUST (4), FBI (14), INS (6),
        Office of Justice Programs (1), OIG (1), Tax Division (1),
        USAO (4), USMS (5)
2003    ATF (1), Executive Office for Immigration Review (1),          19           0.6
        EOUST (1), FBI (3), JMD (1), USAO (8), USMS (4)
2004    ATF (4), BOP (1), Criminal Division (1), Community             37           1.2
        Relations Service (1), DEA (3), Executive Office for
        Immigration Review (3), EOUST (5), FBI (5), USAO (8),
        USMS (6)

Source: CRS

       Similar to the adjudication staffing studies discussed earlier, in
2002 a CRS Security Specialist conducted a study that compared the
number of SEPS Security Specialists with the number of Security
Specialists in other security compliance review offices within and outside
the Department. According to the CRS comparison, in 2002 CRS had
two Security Specialists to conduct reviews of the Department’s
approximately 3,000 offices. In contrast, CRS’s data indicated that the
FBI had 37 security staff to conduct reviews of its 500 offices and the
DEA had 6 security staff to conduct reviews of its 100 offices. Those
staffing levels provide a staff-to-workload ratio of 1,500 offices per
Security Specialist for SEPS, as compared with 13.5 for the FBI and 16.7
for the DEA. CRS has gained one additional Security Specialist since
2002 and currently has three Security Specialists. However, this still

       47  During 2002, SEPS staff conducted inspections of overseas offices. Because
most overseas offices are housed within an embassy in which the Department of State
retains responsibility for physical security and security conditions are identical for
Department components in the embassy, SEPS was able to conduct multiple
component reviews at most locations and expedite each review. The number of reviews
was lower in 2003 because SEPS was tasked by Congress to conduct physical security
surveys of Department offices in buildings operated by the General Services
Administration nationwide in order to assess the buildings’ physical security
vulnerabilities. In response to the congressional mandate, CRS conducted 137 physical
security building inspections.



______________________________________________________________________________________
U.S. Department of Justice                                                      30
Office of the Inspector General
Evaluation and Inspections Division
leaves SEPS’s staff-to-workload ratio at 1,000 offices per Security
Specialist.

       SEPS also receives annual reports from OPM on component
compliance with the regulatory requirement that adjudications be
completed within 90 days. In response to the OPM reports, the CRS site
visits, or other information, SEPS may request that OPM conduct an in-
depth review of components’ management of background investigations.
This occurs infrequently. According to SEPS, the most recent OPM
review it requested was of the ATF when that component transferred
from the Department of the Treasury to the Department of Justice. 48
PERSG has the option of requesting OPM appraisals of the component
programs more frequently, but told us that they recognized from the
difficulty they experienced in obtaining a review of the ATF process that
OPM has to balance these requests with its own heavy workload of
investigations.

      Personnel Security Issues Receive Minimal Attention. In addition
to conducting few security compliance reviews, CRS also devotes little
time to personnel security issues during each review. During the 2-day
security review we participated in, CRS staff spent about 4 hours on
personnel security issues. CRS staff confirmed that 3 to 4 hours per
review was typical. That includes both time spent reviewing background
investigation files before the site visit and time spent reviewing personnel
security issues on site at the office under review.

       Because components’ background investigation files are
maintained centrally, prior to each site visit Security Specialists spend 2
to 3 hours reviewing background investigation files of select employees
from the office that will be reviewed. We accompanied a Security
Specialist on a file review to observe the procedure. The Security
Specialist selected 30 personnel files (26 employees and 4 contractors)
out of the approximately 150 employees assigned to the office under
review. CRS reviews the files to determine whether investigations have
been initiated and adjudicated within the timeframes required by
regulations, waivers have been appropriately requested and approved,
required reinvestigations have been initiated, required paperwork (such
as nondisclosure agreements and security clearance justifications) have


       48 OPM found the ATF capable of conducting its own field investigations and

adjudications for its staff and contractors.



______________________________________________________________________________________
U.S. Department of Justice                                                      31
Office of the Inspector General
Evaluation and Inspections Division
been placed in the file, and the requested clearance level is appropriate
for the level of classified information accessed by the employee.

       Component security officials in field offices have limited
involvement in background investigations. Therefore, SEPS Security
Specialists typically spend only about an hour on personnel security
issues while on site. During that time they question security staff and
other employees to determine how employees and their supervisors are
notified of pending reinvestigations, whether training is provided on
handling classified material, what information security staff and
managers have on personnel clearance levels, and how background
investigations of locally hired contractors and interns are conducted.

       The security compliance review reports that we examined identified
a limited number of problems related to administrative personnel
security. The 20 reports issued in FY 2003 contained a total of 4
findings (direct violations of federal regulations) and no observations
(vulnerabilities not directly covered by federal regulations) related to
personnel security. 49 The findings were: (1) required reinvestigations
had not been initiated for some employees; (2) an employee was in a
sensitive position without a completed and favorably adjudicated
background investigation on file; (3) employees who did not need access
to national security information had been given national security
clearances; and (4) memorandums requesting security clearances lacked
accurate need-to-know justifications. CRS staff stated that the
deficiencies cited in the FY 2003 reports are typical of what they found in
more recent site visits.

       Security Specialists do not review the quality of the adjudication or
investigation of employees’ and contractors’ background investigations or
reinvestigations, nor do any other personnel in SEPS. CRS staff
explained that they do not examine files for substantive issues or to
determine whether there are investigations or disciplinary actions
pending, as such in-depth reviews would mean less time for higher
priority physical and information technology security oversight. Instead,
Security Specialists ensure only that the required paperwork (e.g., signed


        49 In contrast, the 20 reports issued in FY 2003 contained a total of 2 findings

and 78 observations related to physical security. CRS staff stated that because there
are few federal or Department standards on physical security, important security issues
are often addressed in observations.



______________________________________________________________________________________
U.S. Department of Justice                                                      32
Office of the Inspector General
Evaluation and Inspections Division
disclosure forms for cleared employees) is included in employees’ files
and that reinvestigations are timely. 50

      When asked whether they were concerned that no personnel at
SEPS perform any qualitative reviews of components’ adjudications,
SEPS officials confirmed that they were. They stated that it is not
currently possible for SEPS to ensure that components effectively identify
national security concerns during adjudications. However, SEPS officials
noted that other case processing and security oversight issues remained
a higher priority.

      CRS Has Limited Authority to Correct Problems. CRS has no
formal authority to compel a component to correct a security violation. 51
The six current and former CRS Security Specialists we interviewed all
commented that because of this limitation, CRS must carefully decide
which compliance issues it pursues aggressively. For example, CRS
found that the ATF obtains national security clearances for all its Special
Agents, including those who work in offices that do not handle classified
information. Nor does the ATF periodically review whether these security
clearances are necessary. 52 CRS informed us that this practice is not
consistent with security regulations and therefore must be reported as a
finding. 53 CRS told us that it had reported this deficiency during prior
reviews of ATF field offices, and on the site visit we observed, we noted
that the Security Specialist again raised the issue. However, neither CRS
nor the ATF Security Programs Manager had the authority to compel the

       50Reinvestigations are considered timely if the initiation paperwork is
submitted by the end of the fiscal year in which the reinvestigation is due.
       51  For example, although CRS requests that components either implement
changes required by their findings or report why the changes could not be implemented,
of the 20 reports issued in FY 2003, 11 components responded within the requested 60
days, 4 components responded after 60 days (ranging from 2 to 7 months after the due
date), and 4 components did not respond to CRS at all.
       52 A waiver of the periodic review may be granted if the component can show a

continuing need for all employees to be cleared. For example, SEPS granted the FBI a
waiver because it demonstrated such a need.
       53 Under 28 C.F.R. § 17.12(d), each component head must “continuously review

the requirements for personnel access to classified information as a part of the
continuous need-to-know evaluation, and initiate action to administratively withdraw or
reduce the level of access authorized, as appropriate.” SEPS interprets this regulation
to require at least an annual review of employee security clearances to verify that the
employee still requires access.



______________________________________________________________________________________
U.S. Department of Justice                                                      33
Office of the Inspector General
Evaluation and Inspections Division
ATF to either limit the number of clearances or obtain a waiver of the
requirement that clearances be given only to those who must handle
classified information. CRS staff stated that they will continue to report
this issue, but that CRS’s priority is resolving more immediate physical
security risks.

       While component Security Programs Managers provide assistance
to CRS, both in identifying security weaknesses and addressing CRS’s
site visit findings and observations, their authority is also limited. DOJ
Order 2600.2C assigns Security Programs Managers 11 separate areas of
responsibility for ensuring the security of their respective components,
but it provides no specific instructions on the measures Security
Programs Managers can take to enforce security requirements. In our
survey of Security Programs Managers, several explained that they were
unable to implement a CRS finding because there was a component
policy that the Security Programs Manager could not change (such as
some components’ policies of obtaining national security clearances for
all law enforcement officers).

      PERSG Has Limited Authority to Correct Problems. Just as CRS
has no formal authority to require components to comply with personnel
security regulations, PERSG has no formal authority to require
individuals to comply with personnel security regulations. Because
SEPS cannot effectively identify and track all the Department employees
who are overdue for reinvestigation, it cannot perform effective oversight
to ensure compliance with that requirement.

        In its management of component background investigations,
PERSG is responsible for ensuring that personnel submit the paperwork
to initiate their background reinvestigations in a timely manner. To
facilitate compliance for the 27,000 employees and 7,000 contractors for
whom SEPS has retained authority, SEPS provides each component’s
Security Programs Manager with a list of personnel whose
reinvestigations must be initiated by the end of the fiscal year. SEPS
maintains records of personnel who have not submitted the necessary
reinvestigation paperwork in a timely manner (PERSG refers to these
cases as the “backlog”), and forwards the backlog lists to the Security
Programs Managers to follow up with the individuals. SEPS also




______________________________________________________________________________________
U.S. Department of Justice                                                      34
Office of the Inspector General
Evaluation and Inspections Division
provides a list to the OIG of personnel for whom it has not received the
necessary reinvestigation paperwork. 54

      We asked SEPS staff and the Security Programs Managers about
how backlogged cases are handled and, more specifically, how
noncompliance is addressed for personnel with security clearances and
for personnel in public trust positions. For personnel with security
clearances, SEPS staff stated that personnel generally comply with
SEPS’s requests for reinvestigation paperwork because SEPS can
administratively withdraw clearances for failure to submit the
paperwork. 55 Security Programs Managers in our survey confirm that
they do obtain paperwork from personnel who require access to classified
information. In contrast, for personnel in public trust positions, which
do not require a security clearance, SEPS staff stated that they have no
sanctions comparable to the administrative withdrawal of a clearance.
To obtain compliance, they send a memorandum to the OIG reporting
personnel overdue for reinvestigation, and may also involve the Security
Programs Managers. Security Programs Managers can initiate
disciplinary procedures for noncompliance, but stated that it is a lengthy
process. Both SEPS and the Security Programs Managers stated that
they do eventually obtain compliance.

       Incorrect SEPS Data on EOUSA Reinvestigations. To confirm that
overdue individuals are eventually submitting their paperwork, we
reviewed TRAQ data to identify personnel more than 1 year overdue for
reinvestigation as of March 2005. According to the TRAQ data, there
were 399 Department personnel who were more than 1 year overdue for
reinvestigation, of whom 357 were EOUSA employees. SEPS explained
that this data was erroneous because EOUSA initiates its own
reinvestigations and does not report the initiations to SEPS.
Consequently, the individuals continue to be shown in TRAQ as overdue
for reinvestigation.


        54 SEPS also monitors and reports to Security Programs Managers and the OIG

cases in which it believes an employee has entered on duty without the necessary
waiver and initiation of a background investigation. SEPS informed us that some of
these cases are due to a component’s slow reporting, but in other cases background
investigations have not been initiated. For FY 2003 through FY 2005, these cases
generally numbered fewer than 20 per year.
        55 Administrative withdrawals of national security clearances can occur for a

variety of reasons, including a component’s determination that an employee no longer
needs access to classified information.



______________________________________________________________________________________
U.S. Department of Justice                                                      35
Office of the Inspector General
Evaluation and Inspections Division
       Because SEPS did not have complete and accurate data in TRAQ
on the specific number of individuals in the Department that were more
than 1 year overdue for reinvestigation, in May 2005 we requested
information on a sample of 28 overdue cases to determine how many
were actually overdue and how many were erroneous entries in which
reinvestigations were not reported by the component. Of the 28 sample
cases, 14 were erroneous entries that either had a reinvestigation
initiated or in which the employee did not require reinvestigation for
other reasons (such as that they were no longer employed by the
component). Of the 14 cases in which the employee was actually
overdue for reinvestigation, we found that half – including all the
individuals holding NSI clearances – were less than 2 years overdue, but
some public trust employees had been overdue for longer periods,
including one individual who was more than 10 years overdue for
reinvestigation. Overall, our analysis indicated that processing delays
accounted for approximately half of the backlogged EOUSA cases.
Nonetheless, even accounting for the erroneous EOUSA entries, most of
the backlogged cases involved EOUSA employees. 56

       Because SEPS cannot independently identify when EOUSA
initiates reinvestigations, it provides an annual status report to EOUSA
showing the individuals overdue for reinvestigation and requests that
EOUSA initiate appropriate action. The status reports we reviewed did
not specifically request that EOUSA provide a response, and the PERSG
Chief of Operations told us that EOUSA often does not respond directly
to the status reports. Consequently, SEPS often only learns that a
reinvestigation has been initiated when EOUSA forwards the results of
the OPM field investigation.

      The Department does not have a centralized database containing
information on the status of background investigations and
reinvestigations that can be accessed and updated by SEPS staff, the
components for which it retains authority (such as EOUSA), or
components with delegated authority. As we will discuss in greater detail
beginning on page 40, SEPS’s inability to monitor and manage overdue
reinvestigations is one example of the limitations of the Department’s
current technological resources.

        56 EOUSA employees represent 89 percent of the backlog (357 of 399 cases in

FY 2004), and only 54 percent of the employees for whom SEPS has retained authority
(14,535 employees of 26,906). If half of the apparent backlog represents a delay in
reporting, 81 percent (179 of 221) of the backlog would be EOUSA employees.



______________________________________________________________________________________
U.S. Department of Justice                                                      36
Office of the Inspector General
Evaluation and Inspections Division
The Department’s Resource Requests for SEPS

      Despite efforts to increase SEPS’s staff and secure funding for
technology improvements, the Department has not received increased
appropriations for SEPS. In its FY 2005 budget submission, SEPS
requested three additional PERSG positions, six additional compliance
review security specialists, $2,000,000 to replace the TRAQ database,
and $105,000 in additional travel money for CRS site visits. SEPS’s
budget submission tied the need for additional funding directly to the
Department’s counter-intelligence priority and the importance of
ensuring that the Department hire and retain only trustworthy
personnel. The request noted that PERSG staff had worked more than
500 hours of overtime since October 1, 2002, but that PERSG was still
backlogged. The request explained that the existing PERSG file tracking
system, TRAQ, was at the end of its life cycle and at full capacity, and
that a new Department-wide system was needed to enable SEPS to
adequately monitor the Department’s personnel security program. The
budget submission noted the Department’s growing presence overseas
and the need to ensure that the Department’s most vulnerable facilities
be reviewed at least every 5 years.

      The Department supported the budget request, and the Office of
Management and Budget approved the personnel requests and
$1,500,000 for the new database. Funding for these items was included
in the appropriations bill approved by the House, but it was not included
in the final version of the appropriations bill passed by Congress for
FY 2005. PERSG has reduced its backlog since the budget submission,
but as previously noted, it is not able to meet regulatory timeliness
requirements at its current staffing level. Moreover, as discussed below,
with the implementation of HSPD-12 and the Intelligence Reform Act,
SEPS will face an increased workload, more stringent timeliness
requirements, and an expanded oversight role.

SEPS’s File Tracking System

      The file tracking system SEPS uses is outdated, at full capacity,
and does not include needed capabilities. PERSG staff told us that they
selected the system, an inventory management program called TRAQ,
because it had a barcode-scanning capability that allowed PERSG to
track the physical location of each personnel security file. Currently,
PERSG’s TRAQ system contains information on approximately 27,000
Department employees and 7,000 contractors. This represents

______________________________________________________________________________________
U.S. Department of Justice                                                      37
Office of the Inspector General
Evaluation and Inspections Division
approximately one-fourth of the Department’s employees and an
unknown percentage of its contractors. TRAQ contains no information
on the approximately 76,000 employees who work in the components
with delegated adjudicative authority.

       Because TRAQ was designed to be an inventory management
system, SEPS has modified the TRAQ software extensively to accomplish
its internal case monitoring tasks. SEPS regularly obtains management
reports from TRAQ to set adjudication priorities, identify personnel due
for reinvestigation, evaluate security clearance levels, and monitor its
adjudicative backlog. However, according to SEPS’s technical staff,
TRAQ does not provide needed capabilities and cannot be modified
further. In a briefing prepared for the budget director on SEPS’s
justification for its FY 2006 budget request, SEPS staff stated that the
TRAQ vendor told SEPS it has pushed the system well beyond its limits
and capacity and is at risk of losing data due to system crashes. SEPS
staff further stated, “The application will eventually fail due [to] the
amount of records the system is trying to manipulate.” TRAQ’s specific
limitations include:

•      TRAQ cannot be modified to support continuity of operations.
       SEPS staff stated that because the system does not support
       scanned images, the paper files must be retrieved for each step in
       the background investigation process. We determined that in
       FY 2004, there were 13,509 transactions recorded in TRAQ for
       which paper files were needed. SEPS informed us that there were
       an additional 5,166 transactions on SCI clearances and clearance
       certifications, which are kept in separate paper files and not
       recorded in TRAQ. 57 Four file room clerks are needed to manage
       the paper copies of the files. (See Tables 1 and 2 for workload
       statistics.) Further, all of SEPS’s paper files are maintained in one
       location. Because electronic copies have not been made, the loss
       of the paper records would severely disrupt case processing and
       clearance verification. For example, if a bioterrorist attack
       precluded access to the building housing the records, SEPS would
       lose access to a significant portion of the documents supporting




       57 The 5,166 SCI clearance and clearance verifications took place in calendar

year 2004.



______________________________________________________________________________________
U.S. Department of Justice                                                      38
Office of the Inspector General
Evaluation and Inspections Division
       the adjudication of employees’ background investigations and
       other suitability issues. 58

•      TRAQ crashes and file corruptions occur frequently. Because the
       system is outdated and operating over its intended capacity,
       system crashes and file corruption are a common occurrence.
       SEPS did not keep a log of the frequency or duration of system
       malfunctions, but the SEPS technical staff we interviewed stated
       that, at times, system crashes occurred several times a day.
       Because SEPS has modified the system beyond its intended
       capabilities, it is no longer fully supported by the vendor. As a
       result, SEPS technical staff must troubleshoot TRAQ and maintain
       electronic and hard copy backups.

•      TRAQ has no internal quality control features. TRAQ lacks the
       quality control capabilities typically built into databases to ensure
       data accuracy. For example, TRAQ does not recognize when
       processing dates for cases are not sequential. Because the
       software lacks internal quality controls, SEPS pays a contractor to
       review the data entry for accuracy.

•      TRAQ is accessible only to SEPS personnel. Personnel security
       staff from the components cannot directly access TRAQ. As a
       consequence, they cannot obtain case processing status or verify
       clearances without faxing requests or telephoning SEPS
       adjudicators for updates. In their responses to the PERSG
       customer service survey and our survey of Security Programs
       Managers, a number of components stated that they want to
       access status information on particular cases without having to
       call PERSG.

•      TRAQ’s report-generating capabilities are limited. PERSG staff told
       us that TRAQ cannot easily generate ad hoc reports or reports that
       can be shared with components or other external agencies.
       Advanced programming skills are necessary to create new reports
       from TRAQ, and the layout cannot be modified to improve clarity.
       SEPS staff must export data from TRAQ into Microsoft Access to
       generate reports it routinely shares with the components, such as

         58 SEPS could reconstruct the adjudicative decisions and personnel security

files from backup copies of TRAQ and copies of material obtained from the investigating
agencies, personnel and internal affairs offices and other sources, but the process
would be time-consuming.



______________________________________________________________________________________
U.S. Department of Justice                                                      39
Office of the Inspector General
Evaluation and Inspections Division
       reports on cases pending adjudication or requiring reinvestigation,
       and individuals who have been hired on waivers.

No Centralized Background Investigation Database

       The Department has no centralized personnel security database
that SEPS can use to monitor the background investigation status of all
Department employees. Instead, components maintain information on
the background investigations of their personnel in separate systems
that are not interoperable or accessible to SEPS. Some components keep
their records in Oracle databases, while others maintain their records in
Microsoft Access databases or Excel spreadsheets. Further, these
systems do not track the same information regarding the background
investigation process steps to enable comparison across components.

       Based on our review of SEPS’s budget requests and our
discussions with SEPS staff regarding their oversight program, we
identified a number of areas in which the lack of a centralized database
impedes SEPS’s ability to conduct oversight of the components’
background investigation processes:

•      SEPS cannot systematically monitor compliance with prehiring
       requirements. Components must initiate a background
       investigation and complete a waiver before personnel can enter on
       duty. SEPS monitors compliance with this requirement for its own
       workload by downloading biweekly National Finance Center data
       and comparing it to background investigations. While SEPS has
       this tool available for monitoring compliance in the components for
       which it has retained authority, it is not able to conduct
       comparable tests to monitor compliance in the components with
       delegated authority.

•      SEPS cannot systematically monitor compliance with
       reinvestigation requirements. Because EOUSA initiates its own
       reinvestigations, SEPS cannot determine which reinvestigations
       EOUSA has initiated until it receives the paperwork, often more
       than a year later. SEPS therefore cannot identify EOUSA
       personnel who have not completed reinvestigation requirements.
       SEPS also cannot systematically monitor compliance with
       reinvestigation requirements in the components with delegated
       authority, such as timely initiation of reinvestigations and timely
       adjudication of completed reinvestigations, because those
       components initiate and adjudicate their own reinvestigations.

______________________________________________________________________________________
U.S. Department of Justice                                                      40
Office of the Inspector General
Evaluation and Inspections Division
•      SEPS cannot conduct random reviews of the completeness of
       component field investigations. CRS staff must notify components
       in advance to obtain rosters and paper copies of the files, and does
       not review the substance of the adjudicator’s decision.

•      SEPS cannot verify that components are conducting required
       training on the handling of classified information. All components
       are required to ensure that personnel with security clearances are
       given initial training and refresher briefings. Security Programs
       Managers we surveyed reported they use a variety of tracking
       mechanisms, from databases to paper files, to ensure that
       components’ employees receive initial and refresher briefings as
       required. However, not all Security Programs Managers from
       components with field offices conducted direct oversight of field
       office practices.

•      SEPS cannot determine electronically whether components
       annually certify the need for access to classified information.
       SEPS uses a paper questionnaire to verify that personnel in the
       components that SEPS manages have justified the need to retain
       security clearances, and oversight of component compliance with
       this requirement is limited to the sites CRS visits.

      As described previously, TRAQ was not designed as a case
management database and cannot be further expanded to provide SEPS
with additional capabilities it needs to effectively oversee the components’
background investigation processes. SEPS’s compliance reviews cover
only a small fraction of Department personnel each year. A Department-
wide database with imaging capability could reduce the risks inherent in
a paper-based system and enable SEPS to better oversee components’
background investigations programs.

       Because this review focused on SEPS, we did not examine whether
the components’ tracking systems are similarly limited in their
capabilities to provide oversight of their internal processes. In our
discussions with component Security Programs Managers and SEPS
staff, however, we were informed that the DEA is the only component
that currently maintains electronic copies of its background investigation
files. Therefore, a Department-wide database with imaging capability
could provide a security benefit to components with delegated authority,
as well as to SEPS.




______________________________________________________________________________________
U.S. Department of Justice                                                      41
Office of the Inspector General
Evaluation and Inspections Division
      SEPS has identified the need for a Department-wide database and
has requested resources to develop one. The Department concurred with
SEPS’s request, and in FY 2005, requested at least $2 million to replace
TRAQ with a Department-wide system. However, the funding was not
included in the FY 2005 Appropriations Act passed by Congress.

       In its FY 2006 budget request, SEPS has again sought requested
funding for a Department-wide database, stating that a new Department-
wide personnel security database would: (1) allow the Department to re-
engineer its background investigation process to comply with the e-Gov
initiative; (2) improve timeliness by electronically initiating, receiving,
monitoring, and storing background investigations, reinvestigations, and
security clearances; (3) improve communication and information sharing
within the Department; (4) eliminate duplicate investigations, thereby
saving time and money for Department components; (5) enable better
enforcement of personnel security standards, and (6) support better
oversight at the Department level.




______________________________________________________________________________________
U.S. Department of Justice                                                      42
Office of the Inspector General
Evaluation and Inspections Division
       New standards for background investigations contained
       in the Intelligence Reform Act and HSPD-12 will
       significantly increase SEPS’ requirements for processing
       and oversight of background investigations. Meeting the
       new timeliness standards in the Intelligence Reform Act
       will require SEPS to significantly expedite background
       investigation adjudications. In addition, HSPD-12
       established additional processing requirements for
       contractors that will increase SEPS’s workload. SEPS
       will also be required to provide additional oversight of
       components with delegated authority to ensure that
       they comply with the standards.

Timeliness Requirements of the Intelligence Reform Act

       The Intelligence Reform Act imposes progressively tighter
timeliness requirements for adjudications and field investigations that
will overwhelm SEPS’s limited capabilities. To meet the new timeliness
standards, SEPS will have to expedite adjudications significantly. SEPS
also must increase its oversight of the timeliness of field investigations
conducted by the FBI and the ATF to ensure that they meet the new
standards. At present, we believe that SEPS is not well positioned to
meet these challenges.

       Adjudications. Currently, the only formal timeliness requirement
is that adjudications of background investigations and reinvestigations
are to be completed within 90 days. 59 The Intelligence Reform Act
shortened these timeliness requirements. By the end of 2006, 80 percent
of adjudications must be completed within an average of 30 days, and by
the end of 2009, 90 percent of adjudications must be completed within
an average of 20 days.

      To meet the new timeliness standards, SEPS will have to greatly
reduce the time it takes to complete adjudications. For example,
according to data in TRAQ, in FY 2004 SEPS completed 59 percent of its
adjudications of employees’ NSI background investigations within
30 days, and completed 46 percent of its adjudications within 20 days
(see Table 8). Thus, to meet the December 2006 timeliness standard of
80 percent in 30 days, SEPS will have to greatly increase the number of

       59   See 5 C.F.R. § 732.302(b).



______________________________________________________________________________________
U.S. Department of Justice                                                      43
Office of the Inspector General
Evaluation and Inspections Division
adjudications it completes within that time. Meeting the standard for
adjudications of employee reinvestigations and contractor background
investigations will require even greater increases. In FY 2004, SEPS
adjudicated only 31 percent of employee reinvestigations and only 21
percent of contractor background investigations within 20 days.

       Table 8: How SEPS FY 2004 Adjudication Performance Compares to
                Intelligence Reform Act Timeliness Requirements*
                                                          Percentage of SEPS
                                                        Adjudications Completed




                                                         within 90




                                                                      within 30




                                                                                   within 20
                                                           Days




                                                                        Days




                                                                                     Days
   Standards
     Current 2005                                      100           —            —
     December 2006                                      —            80           —
     December 2009                                      —            —            90
   SEPS Adjudications in FY 2004
     Employee NSI Background Investigations             87           59           46
     Employer NSI Reinvestigations                      60           39           31
     Contractor NSI Background Investigations           93           43           21
       Source: SEPS TRAQ
       * For personnel with Secret or Top Secret clearances

      Field Investigations. As of July 2005, there were no regulatory
requirements regarding the timeliness of field investigations on
background investigations. The Intelligence Reform Act requires that, by
December 2006, 80 percent of field investigations be completed within 90
days. By December 2009, 90 percent of field investigations must be
completed within 40 days. As with adjudications, meeting the new
standards will require that field investigations be significantly accelerated
from current performance levels.

       The FBI and OPM conduct the field investigations on those cases
for which SEPS retains adjudication authority. In FY 2004, the FBI took
an average of 197 days to complete a field investigation for SEPS. The
FBI completed approximately 25 percent of its NSI investigations within
90 days and less than 10 percent within 40 days in FY 2004 (see
Table 9). Although OPM’s actions are not within the control of the
Department of Justice, we noted that the time it takes OPM to conduct
field investigations for SEPS will also have to be significantly reduced to
meet the new standards. In FY 2004, OPM’s highest priority cases took


______________________________________________________________________________________
U.S. Department of Justice                                                      44
Office of the Inspector General
Evaluation and Inspections Division
an average of 100 days, and its routine cases took an average of 324
days. 60

              Table 9: How FBI FY 2004 Field Investigation Performance
            Compares to Intelligence Reform Act Timeliness Requirements*
                                                          Percentage of NSI Field
                                                         Investigations Completed
                                                                  by FBI




                                                           within 90




                                                                          within 40
                                                             Days




                                                                            Days
      Standards
        December 2006                                       80             —
        December 2009                                       —              90
      FBI Performance in FY 2004
        Employee NSI Background Investigations              24               8
       Source: SEPS TRAQ
       * For personnel with Secret or Top Secret clearances

      Oversight Implications of Timeliness Standards. Given its
currently available methods of oversight, SEPS is not well positioned to
meet the standards of the Intelligence Reform Act. The Act will require
SEPS to ensure that the FBI and the ATF (the two Department
components with authority to conduct field investigations) meet
timeliness standards for those investigations. SEPS does not currently
review the timeliness of these field investigations, since there were no
regulatory timeliness requirements before the Act. The new timeliness
standards will also apply to the adjudications conducted by Department
components with the delegated authority to carry out those actions.

      Our review of SEPS’s oversight of components with delegated
authority found that its primary oversight of components’ timeliness in
adjudications is accomplished through OPM, which provides SEPS with
an annual report on the Department’s overall compliance with the 90-
day adjudication standard, broken down by component. SEPS may then
address any concerns OPM raised about timeliness with the component



       60   The FBI’s field investigations for SEPS averaged 197 days in FY 2004.



______________________________________________________________________________________
U.S. Department of Justice                                                      45
Office of the Inspector General
Evaluation and Inspections Division
directly. 61 In addition, CRS examines the timeliness of the case
processing in the particular files they select for review prior to field visits.
However, as CRS has been conducting an average of less than 40 site
visits each year, the information gained by those reviews was limited and
anecdotal.

      To conduct effective oversight of the components’ compliance with
the new requirements, SEPS will require additional data, beyond the
annual compliance numbers provided by OPM, that will enable it to track
cases as they progress to completion. As described above, the
Department does not presently have the databases and other
technological infrastructure to allow SEPS to effectively monitor and
analyze the components’ performance at processing background
investigations.

       Other Background Investigation Processing. Our review of the
required timeframes established by the Intelligence Reform Act found
that, as the law is written, no additional time is allowed for aspects of the
background investigation process that are not included in the field
investigation or adjudication phases. For example, there are three
categories of cases for which an additional review is conducted between
completion of the field investigation and SEPS’s adjudication:
(1) political appointees undergoing confirmation, whose files are reviewed
by the Senate; (2) attorneys, whose files are reviewed by the Office of
Attorney Recruitment and Management; and (3) non-attorney personnel
at the U.S. Attorneys’ Offices, whose files are reviewed by EOUSA.

       Even in cases in which there is no additional review before the files
are transmitted to SEPS, it can take several weeks to physically transmit
the paper case files between the investigative and adjudication offices.
Table 10 shows the average time lapse between when field investigations
were completed and when the case files reached SEPS for adjudication
during the last 5 fiscal years. In some cases, the time needed for
additional reviews between the field investigation and the adjudication
would make difficult, or preclude, meeting the timeframes of the
Intelligence Reform Act.


      61 Correspondence an OPM Investigations Program Specialist e-mailed to

PERSG concerning FY 2004 indicated that OPM was generally satisfied with the
Department’s timeliness. (E-mail October 27, 2004, subject “Adjudication”; e-mail
August 13, 2004, “Another Achievement for DOJ.”)



______________________________________________________________________________________
U.S. Department of Justice                                                      46
Office of the Inspector General
Evaluation and Inspections Division
         Table 10: Average Days Between Field Investigation Completion
                             and SEPS’s Receipt*
    Field Investigation Reviewed            FY       FY       FY      FY     FY
    Before Forwarding to SEPS              2000     2001     2002    2003   2004
      Senate-confirmed political
      appointees                            145      89      101      50      —
      Attorneys                             52       37       48      73      43
      EOUSA cases                           185      165     199      161    129
    Field Investigation Sent Directly
    to SEPS                                 40       38       26      19      10
       Source: SEPS TRAQ
       * For all employees

Requirements of HSPD-12

       HSPD-12, issued by the President in August 2004 and scheduled
to be implemented in stages beginning October 27, 2005, will expand
SEPS’s oversight responsibilities to include monitoring identification card
recertifications for all employees and contractors, and checking hiring
practices for contractors who are investigated and hired locally. The
directive establishes minimum government-wide background
investigation requirements for entry on duty and requires an
identification card recertification process every 5 years for employees and
contractors. Although the Department and SEPS had not fully decided
how to implement the Directive during our fieldwork, we can describe the
impact of HSPD-12 requirements on SEPS’s oversight responsibilities.

       Pre-Employment Background Checks. HSPD-12 requires that
agencies conduct several background checks in order to issue official
identification cards to employees. The minimum National Agency Checks
required are the Security/Suitability Investigations Index, Defense
Clearance Investigation Index, FBI Name Check, and the FBI National
Criminal History Fingerprint check. In addition, HSPD-12 requires that
written inquiries be sent to verify past employment, education,
residences, and references. It also requires a check of law enforcement
databases for addresses where the applicant has lived. This background
investigation is called the NACI (National Agency Checks with Inquiries).
As initially issued, HSPD-12 required that all steps of the investigation
except the paper inquiries be completed before employees could be
issued identification cards. In FY 2004, this process took an average of
89 days to complete, according to information that OPM provided to
SEPS regarding the NACI process.

______________________________________________________________________________________
U.S. Department of Justice                                                      47
Office of the Inspector General
Evaluation and Inspections Division
       In May 2005, Department officials from SEPS and the OCIO
involved in implementation of HSPD-12 raised concerns about the length
of time necessary to complete the NACI process. They were particularly
concerned about delays encountered in the FBI Name Check process. 62
In August 2005, OMB amended the guidance on the directive to state
that if the results of the National Agency Checks were not received within
five days, only completion of a favorable fingerprint check would be
required prior to issuance of a building access identification card.

       Identification Card Recertifications. HSPD-12 requires that
background checks be verified every 5 years in order to renew each
employee’s identification card. As described to us by OCIO staff, the
recertification will not require a new NACI check. Instead, the office that
issues the identification card will check the employee’s personnel
security record to verify that an HSPD-12 certification was completed
when the identification card was originally issued. As long as the check
of the employee’s personnel record does not reveal any other prohibiting
factors, the card may be recertified.

       One potential increase in SEPS’s reinvestigation workload could
occur because the timeframes established by HSPD-12 for renewing
identification cards do not coincide with existing OPM requirements for
background reinvestigations. HSPD-12 guidelines require that
identification cards be renewed no more than 5 years after issuance,
whereas OPM’s standards consider a reinvestigation to be current if it is
initiated within 5 years after the previous background investigation was
completed. Therefore, an employee’s HSPD-12 identification card must
be recertified before SEPS is required to complete a reinvestigation.
SEPS officials told us that the possibility of requiring a reinvestigation
before an HSPD-12 identification card is renewed had not been ruled out
as of July 2005. However, if SEPS conducts these actions separately, the
number of cases SEPS will have to track and manage each year will
increase. 63 Conversely, if the decision is made to conduct
       62 According to the Section Chief of the FBI National Name Check Program, the

FBI Name Check can take extended period of time because of a number of factors,
including the steady increase in the number of routine and expedited requests that
have resulted from government-wide changes to security, citizenship, and visa
application policies; understaffing in the FBI’s National Name Check Program office that
processes the name check requests; and the need for a manual review of case files that
are identified by the FBI database as possible hits.
       63 According to TRAQ, about 2,400 employees were reinvestigated in each of the
last 5 years.



______________________________________________________________________________________
U.S. Department of Justice                                                      48
Office of the Inspector General
Evaluation and Inspections Division
reinvestigations early so that they are completed concurrent with the
HSPD-12 recertification, that would effectively shorten the reinvestigation
cycle, which would in turn result in an increase in the number of
reinvestigations that SEPS would have to conduct each year.

       Oversight of Contractors. Our review of the SEPS oversight
program found that it will have to be expanded if it is to cover
components’ compliance with all HSPD-12 requirements regarding
contractors. Staff from SEPS and the OCIO confirmed that HSPD-12
requirements will extend to certain contractors who are currently
investigated and hired at the local level without centralized oversight. At
present, SEPS obtains no case processing information on contractors
hired locally by components. CRS security staff told us that when they
visit a site that has locally-hired contractors, they request a roster and
check the files kept on site. CRS will also talk to the General Services
Administration about shared contract staff, such as janitors. 64 The lack
of a central Department-wide database prevents SEPS from easily
identifying whether contractors from sites it has not visited have received
the proper background check or even whether they are still employed.




       64   Prior OIG reports found that these contractors’ employment status cannot be
easily verified because they are not always paid through the centralized National
Finance Center payroll system. See “Background Investigations Conducted by the
United States Marshals Service,” OIG Evaluation and Inspections Division Report
I-2005-002, February 2005. A May 2005 OIG Audit report indicated concern that the
USMS could not document the background investigations of over half its locally hired
contractors. See “United States Marshals Service's Use of Independent Contractors as
Guards,” Audit Report 05-24, May 2005.



______________________________________________________________________________________
U.S. Department of Justice                                                      49
Office of the Inspector General
Evaluation and Inspections Division
                 CONCLUSIONS AND RECOMMENDATIONS


       As the Department’s primary security office, SEPS is responsible
for adjudicating background investigations, initiating reinvestigations,
and providing security clearances for approximately 27,000 of the
Department’s approximately 103,000 employees and about 7,000
contractors. In addition, SEPS is responsible for developing,
implementing, and disseminating security policies to all Department
components. It must also oversee the physical, personnel, contractor,
information, computer, emergency preparedness and communications
security programs of the Department’s 3,000 to 3,500 field offices.

      To compensate for the increase in background investigation
workload during FY 2000 through FY 2004, SEPS prioritized its
responsibilities, placing the greatest emphasis on adjudicating
background investigations and on processing and verifying SCI
clearances. As a result, in FY 2004, it met federal regulatory
requirements for adjudicating background investigations within 90 days
in 99 percent of its highest priority cases and in 85 percent of cases
overall. Department components also expressed satisfaction with the
service SEPS provided on SCI clearances and clearance verifications for
Department employees and contractors. However, SEPS did not process
lower priority reinvestigations on time and did not fully meet other
important responsibilities related to policy and oversight. Moreover, new
standards for background investigations contained in the Intelligence
Reform Act and HSPD-12 will significantly change the standards the
Department must meet in completing background investigations.

       Policy Guidance. The policy guidance SEPS provides on the
management of background investigations is inconsistent, outdated, and
not widely and readily accessible. SEPS has not issued a complete
revision of DOJ Order 2610.2A since 1990. Instead, SEPS has issued
over 40 separate update memorandums between 1990 and 2005.
Moreover, the guidance does not reflect changes in the security
environment since September 11, 2001. SEPS’s personnel security staff
told us that it has been unable to issue updated security policies and
guidance because of limited staff, a small budget, and an increasing
caseload. We also found that SEPS has not effectively used available
technology, such as the Department’s intranet, to disseminate updates to
policy and guidance. As a result, Security Programs Managers indicated
in surveys that they find the guidance confusing.


______________________________________________________________________________________
U.S. Department of Justice                                                      50
Office of the Inspector General
Evaluation and Inspections Division
      Limited Oversight. CRS serves as the primary vehicle for
conducting oversight of the personnel security operations of components
with delegated authority for managing background investigations.
However, we found that CRS reviews are limited both in number and in
the scope of the examination related to personnel security. With only
three Security Specialists in CRS, SEPS is generally unable to meet its
goal of conducting 60 security compliance reviews each year. Even if it
could complete 60 reviews, that would be about 2 percent of the
Department’s offices. Further, personnel security constitutes a small
portion of each review, and Security Specialists do not perform
substantive reviews of adjudication or investigation quality. We
concluded that this minimal oversight is insufficient to ensure that the
Department is in compliance with personnel security regulations.

      SEPS also relies on outdated technology for case tracking.
Because TRAQ is a stand-alone system unavailable to other components,
SEPS employees and security officials in other components have no
centralized source for background investigation data. Further, because
TRAQ was not designed as a case management database, it lacks
internal quality controls or image scanning capabilities. SEPS therefore
must rely on manual quality reviews and paper-based background
investigation files. The reliance on paper-based files, which are all stored
in one location, presents a security risk in the event those records are
destroyed or inaccessible. According to TRAQ managers, the application
has reached system capacity and frequently crashes, causing file
corruption. Further, because there is no Department-wide database of
background investigation information, SEPS cannot perform systematic
oversight of the components to identify weaknesses in the Department’s
personnel security program, such as components’ failure to comply with
NSI requirements.

       SEPS Not Well Positioned to Meet New Requirements. With its
current resources, processes, and authority, SEPS will have difficulty
both in meeting the performance requirements of the Intelligence Reform
Act and HSPD-12, and in providing oversight of the Department’s
compliance with those requirements. The Intelligence Reform Act
requires that, by the end of 2006, 80 percent of NSI adjudications must
be completed within 30 days, and by 2009, 90 percent of NSI
adjudications must be completed within 20 days. SEPS will have to
significantly improve its timeliness to meet the standards mandated by
the Intelligence Reform Act, because in FY 2004, SEPS completed only
59 percent of its NSI adjudications within 30 days. At current staffing


______________________________________________________________________________________
U.S. Department of Justice                                                      51
Office of the Inspector General
Evaluation and Inspections Division
levels, SEPS will not be able to speed up adjudications to meet these
requirements.

      Also, HSPD-12, which mandates a standardized identification card
for government employees and contractors, will change the Department’s
hiring practices. HSPD-12 will require that SEPS expand its oversight
program to monitor the background investigation process for locally
hired contractors. However, until a consolidated Department-wide
background investigation database is implemented, SEPS has neither the
technological infrastructure nor the staff to monitor compliance with
these requirements.

      While we believe that SEPS has taken reasonable steps to use the
resources available to meet its case processing workload, SEPS
nonetheless cannot fully meet existing and future regulatory
requirements. To effectively carry out its responsibilities, SEPS must
improve its capabilities for managing background investigations,
providing timely and accurate policy guidance for the Department, and
conducting oversight to ensure the effective administration of the
background investigation program in the Department.

RECOMMENDATIONS

      We make six recommendations to help improve SEPS’s
performance of its personnel security responsibilities and better position
the Department to meet the requirements of the Intelligence Reform Act
and HSPD-12.

We recommend that the Department:

   1. Develop a Department-wide plan for implementing the personnel
      security requirements of the Intelligence Reform Act and HSPD-12,
      and identify the resources that will be needed to enable the
      Department to meet the new requirements.

   2. Develop a Department-wide database with imaging capability to
      enable uniform processing and tracking of employee and
      contractor personnel security actions, permit central oversight of
      personnel security operations, and reduce the vulnerability caused
      by reliance on paper records.




______________________________________________________________________________________
U.S. Department of Justice                                                      52
Office of the Inspector General
Evaluation and Inspections Division
We recommend that SEPS:

   3. Once OPM provides the necessary policy decisions, expeditiously
      issue an updated Department personnel security policy, DOJ
      Order 2610.2A.

   4. Develop a plan for conducting routine oversight of components
      with delegated authority that provides reasonable coverage and
      ensures that the background investigations and adjudications
      meet established standards for both quality and timeliness.

   5. Institute an annual report to the Deputy Attorney General to
      describe the performance of the Department and each component
      in adjudicating background investigations and in complying with
      Department personnel security regulations and policies.

   6. Establish procedures to identify the policies, documents, and other
      information necessary for personnel security operations, and in
      coordination with the Department’s Office of the Chief Information
      Officer, make the documents available through the SEPS web site.




______________________________________________________________________________________
U.S. Department of Justice                                                      53
Office of the Inspector General
Evaluation and Inspections Division
                        APPENDIX I: Components With Delegated Authority


                           Delegated Authority Related to Background Investigations
                                         Office of the Attorney General
                                     Office of the Deputy Attorney General
                                    Office of the Associate Attorney General
                                            (authority not delegated)
                                                With                                                   With
                                             Delegated                                              Delegated
                                             Authority?                                             Authority?
Office of the Solicitor General                           Federal Bureau of Prisons                     3

Office of the Inspector General                  3        Drug Enforcement Administration               3

Office of Legal Counsel                                   Federal Bureau of Investigation               3
                                                          Bureau of Alcohol, Tobacco, Firearms,         3
Office of Legal Policy                                    and Explosives
Office of Intelligence Policy and Review                  U.S. Marshals Service                         3
                                                          INTERPOL - U.S. National Central              3
Office of Professional Responsibility                     Bureau
Office of Legislative Affairs                             Executive Office for Immigration Review       3
Office of Intergovernmental and Public
Liaison                                                   Office of the Pardon Attorney
Office of Information and Privacy                         U.S. Parole Commission                        3

Office of Public Affairs                                  Executive Office for U.S. Trustees            3
Office of Dispute Resolution                              Community Relations Service                   3

Justice Management Division                               Foreign Claims Settlement Commission
Executive Office for U.S. Attorneys              3        Office of Justice Programs                    3
                                                          Office of Community Oriented Policing
Antitrust Division                               3        Services -- COPS
Civil Division                                   3        National Drug Intelligence Center             3
                                                 3        Professional Responsibility Advisory
Civil Rights Division                                     Office
Criminal Division                                3        Office of the Federal Detention Trustee
Environment and Natural Resources
Division                                         3        Office on Violence Against Women
Tax Division                                     3

Source: Department of Justice Public Website (http://www.usdoj.gov/jmd/mps/mission.htm)




         ______________________________________________________________________________________
         U.S. Department of Justice                                                      54
         Office of the Inspector General
         Evaluation and Inspections Division
                 Components With Delegated Authority to Conduct and Adjudicate
                        Background Investigations and Reinvestigations
                                               With Delegated Authority     With Delegated Authority
                                                      to Conduct                  to Conduct
                                               Field Investigations for:a      Adjudications for:
Components                                     Employees    Contractors     Employees   Contractors
OIG                                                                                         3
Executive Office for United States Attorneys                                                 3
Antitrust Division                                                                           3
Civil Division                                                                               3
Civil Rights Division                                                                        3
Criminal Division                                                                            3
Environmental and Natural Resources                                                          3
 Division
Tax Division                                                                                 3
Federal Bureau of Prisons                                                       3            3
DEA                                                                             3            3
FBIb                                               3              3             3            3
ATFc                                               3              3             3            3
USMSd                                                             3             3            3
INTERPOL                                                                                     3
Executive Office for Immigration Review                                                      3
U.S. Parole Commission                                                                       3
Executive Office for United States Trustees                                     3            3
Community Relations Service                                                                  3
Office of Community Oriented Policing                                                        3
  Services
National Drug Intelligence Center                                               3            3

  Source: SEPS

  aOPM conducts field investigations for all Department employees and contractors,
  except for political appointees, attorneys, and the specific categories of employees or
  contractors in the ATF, FBI, and USMS.
  bThe FBI conducts field investigations for all of the Department’s political appointees
  and attorneys, as well as for its own employees and contractors.
  cThe ATF conducts field investigations for all its employees and contractors except
  political appointees and attorneys.
  d The USMS conducts background investigations of Court Security Officers and some
  contractors who are hired directly by USMS Districts.




  ______________________________________________________________________________________
  U.S. Department of Justice                                                      55
  Office of the Inspector General
  Evaluation and Inspections Division
                            APPENDIX II: SEPS’s Organization




                                                                     Director
                                                      Security and Emergency Planning Staff


                      Executive Officer
           Security and Emergency Planning Staff


                                                                 Deputy Director
                                                      Security and Emergency Planning Staff




                                              Assistant Director
                                                                                Associate Director          Assistant Director
             Assistant Director             Office of Information
                                                                             Emergency Management         Facilities and Personnel
          Personnel Security Group         Safeguards and Security
                                                                            Operations and Policy Group      Protection Group
                                                  Oversight



                                                         Chief                                                        Chief
                      Chief                                                                 Chief              Justice Protective
                                                   Compliance Review
                Operations Section                                                     Policy Section          Service Operations
                                                       Section
                                                                                                                     Section

                       Chief                             Chief                                                       Chief
               Policy, Training, and               Technical Security                     Chief                 Physical Security
                Oversight Section                      Section                      Operations Section            Systems and
                                                                                                               Operations Section

                                                          Chief
                                                   Litigation Security
                                                         Section

                                                         Chief
                                                       Classified
                                                   Information Policy
                                                     and Operations
                                                        Section




Source: SEPS




______________________________________________________________________________________
U.S. Department of Justice                                                      56
Office of the Inspector General
Evaluation and Inspections Division
    APPENDIX III: The Justice Management Division’s Response




______________________________________________________________________________________
U.S. Department of Justice                                                      57
Office of the Inspector General
Evaluation and Inspections Division
______________________________________________________________________________________
U.S. Department of Justice                                                      58
Office of the Inspector General
Evaluation and Inspections Division
______________________________________________________________________________________
U.S. Department of Justice                                                      59
Office of the Inspector General
Evaluation and Inspections Division
      APPENDIX IV: THE OIG’S ANALYSIS OF JMD’S RESPONSE


      On August 11, 2005, the Office of the Inspector General (OIG) sent
copies of the draft report to the Assistant Attorney General for
Administration with a request for written comments. The Assistant
Attorney General for Administration provided the Justice Management
Division’s (JMD) final written comments to us in a memorandum dated
September 9, 2005 (Appendix III).

       JMD concurred with all six of our recommendations. However, we
will require additional details regarding JMD’s proposed plans to assess
their effectiveness in meeting the intent of the recommendations. Our
analysis of JMD’s response to each recommendation follows.

RECOMMENDATIONS

      Recommendation 1: Develop a Department-wide plan for
implementing the personnel security requirements of the Intelligence
Reform and Terrorism Prevention Act of 2004 (Intelligence Reform Act)
and Homeland Security Presidential Directive 12 (HSPD-12), and identify
the resources that will be needed to enable the Department to meet the
new requirements.

       Status: Resolved – Open

      Summary of JMD’s Response: JMD stated that the Department
has an HSPD-12 plan that includes personnel security requirements
imposed by that Directive. The Department’s final implementation plan
was submitted to the Office of Management and Budget on August 27,
2005. With respect to the Intelligence Reform Act, JMD stated that the
Security and Emergency Planning Staff (SEPS) will develop a plan by
September 30, 2005, to implement the personnel security requirements
of that statute for adjudicating background investigations.

      OIG’s Analysis: To enable the OIG to assess these plans, please
provide the OIG with copies of both implementation plans by October 3,
2005.

      Recommendation 2: Develop a Department-wide database with
imaging capability to enable uniform processing and tracking of
employee and contractor personnel security actions, permit central

______________________________________________________________________________________
U.S. Department of Justice                                                      60
Office of the Inspector General
Evaluation and Inspections Division
oversight of personnel security operations, and reduce the vulnerability
caused by reliance on paper records.

       Status: Resolved – Open

      Summary of JMD’s Response: JMD stated that a Department-wide
database to track both employee and contractor personnel security
actions is part of the HSPD-12 plan and budget. The database will not
include imaging capability, but JMD stated that copies of all of SEPS’s
background investigations are maintained separately by the investigating
agencies. JMD also stated that under the Office of Personnel
Management’s (OPM) e-Gov initiative, all investigating agencies will
eventually move to electronic records of background investigations and a
paperless environment for their customers.

       OIG’s Analysis: By January 13, 2006, please provide the OIG with
a copy of the plan for a Department-wide database for tracking employee
and contractor personnel security actions that meets OPM’s requirement
for a paperless process and that addresses the interoperability, oversight,
and continuity of operations requirements identified in our review. As
the response indicates that the imaging capability may be distributed
among investigative agencies, the plan should include JMD’s proposal to
ensure that JMD and the components with delegated investigative
authority develop and implement compatible systems that meet OPM
requirements. The plan should confirm that the systems will also
provide electronic storage capability for documents generated by
components with adjudicative responsibility. The plan should include
details on how these systems will interact to enable SEPS to conduct
centralized oversight of the timeliness and quality of investigations and
adjudications.

      Recommendation 3: Once OPM provides the necessary policy
decisions, expeditiously issue an updated Department personnel security
policy, DOJ Order 2610.2A.

       Status: Resolved – Open

      Summary of JMD’s Response: JMD stated that by November 21,
2005, it will circulate a revised DOJ Order 2610.2A for comment by
components.



______________________________________________________________________________________
U.S. Department of Justice                                                      61
Office of the Inspector General
Evaluation and Inspections Division
      OIG’s Analysis: The action described by JMD is responsive to our
recommendation. By January 13, 2006, please provide the revised DOJ
Order 2610.2A. If the revision has not been completed, please provide a
timeline for incorporating comments and issuing the updated Order.

      Recommendation 4: Develop a plan for conducting routine
oversight of components with delegated authority that provides
reasonable coverage and ensures that the background investigations and
adjudications meet established standards for both quality and
timeliness.

       Status: Resolved – Open

      Summary of JMD’s Response: JMD agreed that SEPS should
include in its compliance reviews oversight of the quality and timeliness
of those investigations. JMD also stated that, as our report notes, SEPS
provides oversight of the components it has delegated adjudicative
authority to through its Compliance Review Section’s security compliance
reviews. JMD is seeking three additional positions in the FY 2007
budget for the Compliance Review Section to enhance its ability to
conduct effective oversight. In the meantime, JMD stated that SEPS will
develop a plan by September 30, 2005, to ensure that personnel security
issues receive more attention during security compliance reviews.

       OIG’s Analysis: Please provide the OIG with a copy of the plan for
improving personnel security oversight by October 3, 2005. The plan
should identify all additional elements that SEPS will introduce to ensure
reasonable oversight of the quality and timeliness of the Department’s
background investigations. Additional staffing, if received, would
increase SEPS’s ability to conduct oversight. But even assuming the
proposed doubling of SEPS’s Compliance Review Section employees
occurs, a six-member staff will be able to review only a limited portion of
the Department’s offices each year because these SEPS employees must
address other security requirements as well. Therefore, the plan should
identify any additional methods by which JMD can ensure personnel
security issues receive sufficient attention.

      Recommendation 5: Institute an annual report to the Deputy
Attorney General to describe the performance of the Department and
each component in adjudicating background investigations and in
complying with Department personnel security regulations and policies.



______________________________________________________________________________________
U.S. Department of Justice                                                      62
Office of the Inspector General
Evaluation and Inspections Division
       Status: Resolved – Open

       Summary of JMD’s Response: JMD stated that following
implementation of the enhanced oversight plan, the Assistant Attorney
General for Administration will report annually to the Deputy Attorney
General on the performance of each component with delegated authority
in complying with the Department’s adjudication regulations and
policies.

      OIG’s Analysis: The action described by JMD is responsive to our
recommendation. By January 13, 2006, please provide written
procedures describing how SEPS will report to the Deputy Attorney
General on components’ compliance with all federal and Department
regulations and policy for which it has oversight responsibility, including
compliance with HSPD-12 and the Intelligence Reform Act requirements.

      Recommendation 6: Establish procedures to identify the policies,
documents, and other information necessary for personnel security
operations, and in coordination with the Department’s Office of the Chief
Information Officer, make the documents available through the SEPS
web site.

       Status: Resolved – Open

     Summary of JMD’s Response: JMD stated that SEPS is
implementing this recommendation.

      OIG’s Analysis: The action described by JMD is responsive to our
recommendation. By January 13, 2006, please provide: (1) the date by
which existing materials will be posted to the web site if such posting is
not already complete and (2) written procedures for SEPS’s coordination
with the e-Gov staff within the Office of the Chief Information Officer to
ensure that new materials are posted to the web site in a timely manner.




______________________________________________________________________________________
U.S. Department of Justice                                                      63
Office of the Inspector General
Evaluation and Inspections Division
